<html>
<title> - HEARING ON RENEWING AMERICA'S FUTURE: ENERGY VISIONS OF TOMORROW, TODAY</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Publishing Office]



      RENEWING AMERICA'S FUTURE: ENERGY VISIONS OF TOMORROW, TODAY

=======================================================================

                                HEARING

                               before the
                          SELECT COMMITTEE ON
                          ENERGY INDEPENDENCE
                           AND GLOBAL WARMING
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 31, 2008

                               __________

                           Serial No. 110-47


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




             Printed for the use of the Select Committee on
                 Energy Independence and Global Warming

                        globalwarming.house.gov


                  U.S. GOVERNMENT PRINTING OFFICE
61-957                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








                SELECT COMMITTEE ON ENERGY INDEPENDENCE
                           AND GLOBAL WARMING

               EDWARD J. MARKEY, Massachusetts, Chairman
EARL BLUMENAUER, Oregon              F. JAMES SENSENBRENNER, Jr., 
JAY INSLEE, Washington                   Wisconsin, Ranking Member
JOHN B. LARSON, Connecticut          JOHN B. SHADEGG, Arizona
HILDA L. SOLIS, California           GREG WALDEN, Oregon
STEPHANIE HERSETH SANDLIN,           CANDICE S. MILLER, Michigan
  South Dakota                       JOHN SULLIVAN, Oklahoma
EMANUEL CLEAVER, Missouri            MARSHA BLACKBURN, Tennessee
JOHN J. HALL, New York
JERRY McNERNEY, California
                                 ------                                

                           Professional Staff

                   Gerard J. Waldron, Staff Director
                       Aliya Brodsky, Chief Clerk
                 Thomas Weimer, Minority Staff Director










                            C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Edward J. Markey, a Representative in Congress from the 
  Commonwealth of Massachusetts, opening statement...............     1
    Prepared Statement...........................................     3
Hon. F. James Sensenbrenner, Jr., a Representative in Congress 
  from the State of Wisconsin, opening statement.................     9
    Prepared Statement...........................................     7
Hon. John Hall, a Representative in Congress from the State of 
  New York, opening statement....................................    10
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, prepared statement.........................    11
Hon. Emanuel Cleaver II, a Representative in Congress from the 
  State of Missouri, prepared statement..........................    14

                               Witnesses

Cathy Zoi, Chief Executive Officer, Alliance for Climate 
  Protection.....................................................    15
    Prepared Testimony...........................................    18
Gregory Yurek, Ph.D, Founder, Chairman, and CEO, American 
  Superconductor Corporation.....................................    22
    Prepared Testimony...........................................    24
Dr. Andrew Frank, Professor, Mechanical and Aeronautical 
  Engineering, University of California at Davis.................    30
    Prepared Materials...........................................    32
    Answers to submitted questions...............................    81
Dr. Aristides A.N. Patrinos, Ph.D, President, Synthetic Genomics.    36
    Prepared Testimony...........................................    38
    Answers to submitted questions...............................    84
Steven Lockard, CEO, TPI Composites..............................    44
    Prepared Testimony...........................................    46
    Answers to submitted questions...............................    87

 
HEARING ON RENEWING AMERICA'S FUTURE: ENERGY VISIONS OF TOMORROW, TODAY

                              ----------                              


                        THURSDAY, JULY 31, 2008

                  House of Representatives,
            Select Committee on Energy Independence
                                        and Global Warming,
                                                    Washington, DC.
    The committee met, pursuant to call, at 1:30 p.m. in Room 
2325 Rayburn House Office Building, Hon. Edward J. Markey 
(chairman of the committee) presiding.
    Present: Representatives Markey, Hall, Herseth Sandlin, 
Inslee, Cleaver, McNerney, Sensenbrenner, and Shadegg.
    Staff Present: Jonathan Phillips
    The Chairman. We welcome you all to the Select Committee on 
Energy Independence and Global Warming for this important 
hearing on Renewing America's Future: Energy Visions of 
Tomorrow, Today.
    This country stands at the precipice of a renewable energy 
revolution. Electricity generated from wind, and solar is 
flooding onto the grid at exponential rates. U.S. industry is 
retooling their facilities for mass production of hybrid and 
plug-in cars and trucks. Some of the same scientists that 
mapped the human genome have turned their genius to putting 
grasses, crop waste and algae into our gas tanks. The 
entrepreneurs and financial markets get it. Communities like 
Newton, Iowa, where wind blades are now produced by the same 
blue collar workers left unemployed when Maytag left town, are 
living the renewable energy revolution.
    But Big Oil and its dreams die hard. President Bush is 
still continuing to block tax incentives for renewable energy 
and holding it hostage to Big Oil's drilling agenda. They 
refuse to look at the future and stubbornly hold onto policies 
that belong in the last century. One can understand why, 
because the oil allies of the two oilmen in the White House are 
doing very well, while the American consumer is getting tipped 
upside down.
    This morning Exxon Mobil announced the largest quarterly 
profits in corporate history, raking in nearly $12 billion in 
profits in just the last 3 months. Analysts estimate that when 
2008 profits are fully counted, all that consumer pain will add 
up to $160 billion in profits for the big five oil companies. 
This is all great news for the old guard and their supporters 
in Congress.
    But Americans suffering with high energy prices know that 
old policies don't work anymore and a change is needed. Change 
is needed to end our addiction to high priced oil and change is 
needed to curb our emissions of dangerous greenhouse gasses.
    Today we are fortunate to have a group of visionaries here 
to share with us how technology already in existence is poised 
to transform America's energy future.
    These are not pie in the sky dreams. The technology already 
exists to power much of our auto fleet with clean electricity. 
With the right Federal policies, that transition will happen 
many years before oil from the Alaskan National Wildlife Refuge 
could possibly come on line. Huge 10 megawatt wind turbines 
will churn out energy from deep offshore locations, long before 
oil platforms possibly could.
    The creative thinkers of the world have been laying the 
foundation for this energy transition for years, and even 
decades. All that remains in the way is Big Oil and the old 
guard protecting them.
    The American economy has a major leak. This year more than 
half a trillion dollars will gush from that leak and float into 
the coffers of foreign governments. It is time to plug this 
growing hole and redirect these energy dollars from hostile 
foreign governments to blue collar American workers. This will 
put millions of Americans back to work, rejuvenate the economy 
and strengthen our national security.
    The term ``disruptive technology'' is one we will probably 
hear frequently today. It has been one that I encounter a lot 
in the telecommunications and Internet hearings that I chair. 
It represents a paradigm shift. It represents what is possible 
by working smarter instead of harder. It is what some of the 
visionaries here today have dedicated their careers to. But for 
some people getting rich off the status quo, disruptive 
technology represents a threat, and from this group we must 
expect a political struggle for America's energy future.
    We are comforted by the harsh reality that our planet is 
undeniably warming. This dictates that carbon-free renewable 
energy will inevitably win out. The question that remains is 
whether America will be at the forefront of this once in a 
generation economic opportunity or whether we will these 
benefits to the global leaders of tomorrow.
    This is going to be a very important hearing. I now turn 
and recognize the ranking member, the gentleman from Wisconsin, 
Mr. Sensenbrenner.
    [The prepared statement of Mr. Markey follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Sensenbrenner. I thank the Chairman. I am going to do 
what the staff always fears, and that is ask unanimous consent 
that my opening statement get put in the record.
    The Chairman. Without objection, so ordered.
    [The prepared statement of Mr. Sensenbrenner follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Sensenbrenner. And I am going to talk extemporaneously. 
What you heard from the chairman is a prescription for economic 
disaster for this country. And a lot of the debate on what we 
do about our energy problem, which everybody concedes exists, 
is an us versus them philosophy. And the chairman has been one 
of the most eloquent proponents of us versus them and we just 
heard about 5 minutes worth of that in his opening statement.
    The way we get ourselves out of the barrel that we are in 
now is not by taking anything off the table, but by the 
Congress acting in a leadership role to come up with market 
driven, balanced energy policies. And this is not a balanced 
energy policy, but it is a package of pay offs to special 
interest groups that have good lobbying organizations. 
Something that will say that whatever we can do to increase our 
energy supply with either traditional sources of energy or 
alternative sources of energy is what we need to do to get out 
of a situation which will be economic catastrophe if this is 
not addressed.
    And the reason I say that this has to be market driven is 
that if Congress comes up with something that is more expensive 
than the current energy alternatives, the market is going to 
work and Congress' regulation is just going to make less energy 
flow to our consumers and at a higher price. So we need to have 
common sense alternatives.
    What we are going to be hearing today are some of the 
common sense alternatives, and I don't criticize any of the 
witnesses here today, but the attitude of exclusivity and 
pointing fingers at one another is going to mean that nothing 
meaningful passes.
    Yesterday we had a hearing talking about natural gas. And 
natural gas is the cleanest burning fossil fuel that we have in 
great supply here in this country. But if we emphasize natural 
gas at the expense of coal, we are going to end up driving up 
the price of natural gas, which a goodly number of our people 
in this country heat their houses with. And if we have a cap 
and tax response to climate change issues, which the majority 
party seems to be moving toward, we are going to have the 
market make choices based upon how much in carbon credits or 
how little in carbon credits you have to buy, and there are 
going to be winners and losers.
    Now, I have heard a lot of talk about how we can put 
together major energy legislation where everybody is a winner. 
Folks, that ain't going to happen and I think we all know it. 
And people who say that we can draft energy legislation with no 
winners and losers I think are deluding themselves and deluding 
those who listen to what they have to say and believe it.
    The fact of the matter remains that if we want to fuel a 
$14 trillion economy, we have to do it in a balanced manner. We 
shouldn't take anything off the table. We shouldn't regulate 
it. We shouldn't say that Congress knows best because the 
market and the people of this country who participate in that 
market collectively know a lot better than the 535 of us who 
have been elected to the Congress of the United States.
    I thank the gentleman and yield back.
    The Chairman. A frightening thing just occurred here, 
ladies and gentlemen, and I just wanted to comment upon it as 
the gentleman from Wisconsin has----
    Mr. Sensenbrenner. Well, I yield the balance of my time to 
the chairman.
    The Chairman. I thank the gentleman. I just wanted to point 
out that congressional staffers everywhere are petrified that a 
Congressman just finished a 5-minute statement where all 
sentences parsed and had a beginning and a middle and an end, 
and that threatens job security everywhere.
    Mr. Sensenbrenner. Reclaiming my time, I got an A in 
English.
    The Chairman. So let me turn now and recognize the 
gentleman from New York, Mr. Hall.
    Mr. Hall. Thank you, Mr. Chairman and Mr. Ranking Member. I 
am looking forward to our testimony, welcome our witnesses. And 
I would say if we have learned anything over the last few 
months and years it is in fact that the market, at least under 
the current administration, has not solved our problems and in 
fact has been part of the equation that has pushed up prices to 
the point where people in my district are seriously concerned 
about home heating oil in the coming months. They are seriously 
concerned about the cost of gasoline for their cars. Many of 
them are already adopting, even those who are not so-called 
early adopters because they are not particularly wealthy, but 
they are already adopting alternative technology such as 
geothermal, solar and other renewables.
    But we know that our relationship with energy is going to 
change one way or another. The sky high prices that have 
plagued America's drivers and undermined our economy are 
something that is wrong and we need to fix. And we have two 
choices, the policies of the past or the future. The other side 
of the aisle has made a vigorous argument for pursuing the 
policies of the past. Their none-of-the-above energy policy 
would reject every solution that doesn't involve old disproven 
drilling plans.
    And by the way, I did get to speak to the chairman of 
Chesapeake Energy yesterday, one of the biggest oil and gas 
producers in the country. And I asked him is Congress, are we 
holding you and the natural gas industry back from drilling 
anywhere? Do you have enough places to drill? And he said, yes, 
we do, that is not our problem. We are discovering new fields 
all the time and we are happy with the available land for 
leasing today. So I would be curious to ask the same question 
of the oil companies.
    Anyway, even T. Boone Pickens, one of the original oil 
wildcatters, admits that we can't drill our way out of a 
crisis. In fact, he said he is more excited about wind power 
today than he has ever been about any other oil field that he 
has ever discovered.
    So change can happen and we are in the middle of it, and I 
hope you make the right choice. The time is now and we cannot 
fail.
    I yield back.
    The Chairman. Thank the gentleman very much. That completes 
the time for opening statements from members. We are going to 
turn to our very distinguished panel.
    [The prepared statement of Ms. Blackburn follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    [The prepared statement of Mr. Cleaver follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Our first witness is Cathy Zoi, who is the founding CEO of 
the Alliance for Climate Protection, a nonprofit organization 
pushing for broader education on climate change. She has 
extensive experience in the environmental and energy sectors. 
She has been profiled as a global warming warrior and hero by 
Rolling Stone Magazine. We are honored to have you here. 
Whenever you are ready, please begin.

 STATEMENT OF CATHY ZOI, CHIEF EXECUTIVE OFFICER, ALLIANCE FOR 
                       CLIMATE PROTECTION

    Ms. Zoi. Thank you very much. And members of the committee, 
thank you for the opportunity to appear today. Thank you for 
your continued leadership.
    The Chairman. Can you turn on your microphone, is that 
possible?
    Ms. Zoi. Thank you for your continued leadership on this 
issue, which is perhaps the most important challenge facing the 
country.
    As mentioned, I am Cathy Zoi, CEO of the Alliance for 
Climate Protection, a nonprofit organization focused on solving 
the climate crisis and mobilizing millions of Americans through 
the We Campaign. Our bipartisan Board of Directors is chaired 
by Al Gore.
    Many Americans have a hard time thinking about our energy 
future, largely because their energy present is so challenging. 
Gas prices are hovering near $4 a gallon, electricity and 
heating bills are up as well, and the economy is struggling 
with the burden of imported oil, insecurity over future energy 
supplies, the urgent need to address climate change, and our 
troops under fire today in part due to our need to satisfy the 
Nation's oil appetite.
    To solve these problems we must repower our economy, fast. 
Vice President Gore has issued a challenge for us to do just 
that, to generate 100 percent of our electricity from truly 
clean sources that do not contribute to global warming and to 
do so within 10 years. It is an ambitious but obtainable goal. 
American know-how and an industrious workforce are up to it.
    Meeting this challenge will deliver affordability, 
stability and confidence that our economy needs, as well as a 
healthy environment, and it will generate millions of good 
American jobs that can't be outsourced, investing in clean 
energy technologies here at home by people's good hard work.
    Meeting the challenge to repower America will involve 
simultaneous work on three technical fronts: One, get the most 
out of energy we currently produce; two, rapidly deploy the 
clean energy technologies we already know can work; and three, 
create a new, smart, integrated grid to deliver power 
economically from where it is generated to where people live.
    The first front is about energy efficiency. The potential 
is vast and largely untapped. Now is the time to commence a 
comprehensive national energy upgrade that will reduce the 
energy bill of homeowners and businesses, even as cost of 
energy supplies may be on the rise.
    The second front in meeting the repower America challenge, 
the expanded use of existing generation technologies, has a 
number of pieces. It will include accelerated growth in our 
wind energy industry. We have a strong running start. The U.S. 
was the leading installer of wind technology last year. T. 
Boone Pickens says we can get at least 20 percent of America's 
electricity from wind power. We think he is right.
    Solar thermal power is also booming and poised for rapid 
acceleration. The resource potential is so vast that a series 
of collectors in the American Southwest totaling just 92 miles 
on a side could power our entire electricity system. Utilities 
in Arizona, Nevada and California have already begun to tap 
this potential with plans for powering nearly 1 million homes 
already underway. And advances in thermal storage technologies, 
along with investments in our grid mean solar thermal power 
will be able to provide electricity at night, like coal power 
does today.
    Other energy sources will play a role as well. Nuclear and 
hydroelectric power currently, combined, contribute roughly 25 
percent of America's electricity, and that will continue. Coal 
and natural gas can play a significant role by capturing and 
storing their carbon emissions safely. Our hope is that CCS 
emissions technology can be developed and commercialized 
quickly. Coal isn't clean without it.
    There are reportedly a few CCS plants now proposed in the 
U.S., although another roughly 70 proposed coal plants have no 
such plans to capture their carbon pollution. This must change.
    The third front to repower America challenge is the 
creation of a unified natural electricity grid. A supersmart 
grid will form the backbone and entire skeleton of our modern 
power system. Efficient high voltage lines will move power from 
remote resource rich areas to places where power is consumed. 
It will also allow households to make money by automatically 
using energy at the cheapest times, and sell electricity back 
to the grid when they can. A smart meter spins both ways.
    Now what about the money for meeting this 100 percent clean 
power challenge? It will require a one-time capital investment 
in new infrastructure, with a bulk of funding coming from 
private finance. If policies reward reducing global warming 
pollution, private capital will flow towards clean energy 
solutions.
    But the most important cost figures to consider may be the 
ones we will avoid. American utilities will spend roughly $100 
billion this year on coal and natural gas to fuel existing 
power plants, and they will spend more next year and the year 
after that, until we make the switch to renewable fuels that 
are free and limitless.
    Now why a 10-year challenge? The science, the economic 
pressures and our national security concerns demand swift, 
concerted action. The best climate scientists tell us we must 
make swift progress to turn the corner on global carbon 
emissions or the ecological consequences will be irreversible.
    Second, the solutions are available now. We will hear from 
the fellow panelists. There are no technology or material 
impediments. We can and must seize this moment. Failing to move 
swiftly will deprive the U.S. economy of earnings from one of 
the fastest growing technology sectors in the world. Let's get 
going.
    We have done this before. We mobilized the auto industry in 
12 months to service the hardware needs of World War II. The 
Marshall plan to reconstruct Europe was executed in 4 years. 
And as Vice President Gore pointed out, we reached the Moon in 
8 years, not 10. We can do this. I am hopeful that with your 
leadership we will accept the challenge of building a safe, 
secure and sustainable energy future.
    Thank you.
    [The prepared statement of Ms. Zoi follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    The Chairman. Thank you, Ms. Zoi, very much.
    Our second witness is Dr. Gregory Yurek, the founder, 
chairman, and CEO of American Superconductor Corporation, 
previously a professor at MIT and cofounder of their corrosion 
laboratory. His expertise in advanced materials has led to 
critical developments in energy systems and efficiency.
    We look forward to your testimony, sir.

  STATEMENT OF DR. GREGORY YUREK, FOUNDER, CHAIRMAN, AND CEO, 
              AMERICAN SUPERCONDUCTOR CORPORATION

    Mr. Yurek. Good afternoon, Mr. Chairman, and----
    The Chairman. Turn on your microphone, please.
    Mr. Yurek. I think it is. Good afternoon, Mr. Chairman and 
House committee members. It is a pleasure----
    The Chairman. Hold on.
    Ms. Zoi. Try mine.
    Mr. Yurek. Good afternoon. It is a pleasure and honor to 
come before this committee and speak about the critical energy 
independence issues facing our country.
    If our Nation is to continue to thrive, we must embrace new 
technologies that will increase our energy independence and 
strengthen our electricity infrastructure.
    American Superconductor is a leading provider of energy 
technologies for the power grid and alternative energy sectors.
    Before I proceed further, I would like to ask you to 
examine the copper cables that are in my left hand here and the 
superconductor wires manufactured by my company in my right 
hand here. Similar wire bundles are available for you to be 
looking at and they will be passed around. These few hair thin 
superconductor wires carry as much power as all of this copper 
that has transmitted power since the days of Thomas Edison. In 
fact many power cables in the U.S. grid are about a century 
old.
    I submit that we will not solve our country's difficult 
energy problems with 100-year old technology. After 2 decades 
of development, superconductors are beginning to play a key 
role in powering their homes and businesses. Superconductor 
power distribution cables have been operating in the power 
grids in Albany, New York, Columbus, Ohio for 2 years now. And 
just a few months ago we energized the world's first 
superconductor power transmission cable system in a commercial 
power grid on Long Island.
    The poster you see here shows the three conduits. That 
would be over here. One of the posters on your right, left-hand 
side shows three conduits for the superconductor power cables 
and the installation process on Long Island. This cable system, 
these three cables are able to carry 574 megawatts of power, 
enough to power 300,000 homes in just a 4-foot right-of-way. 
This is a far, far smaller right-of-way than the 300 feet 
needed to transmit the same amount of power by conventional 
overhead lines in that same picture.
    To put this all in perspective, you only need seven of 
these electricity pipelines to carry all of the power that will 
be generated by Mr. T. Boone Pickens first 4,000 megawatt wind 
farm. These electricity pipelines can and should be a part of 
our drive to energy independence and reduce power plant 
emissions.
    American Superconductor, with the support of Departments of 
Energy, Defense, Homeland Security, has led the world in the 
development of this revolutionary energy technology for more 
than 20 years. I am pleased to report that during this period 
American Superconductor has invested over $800 million in 
developing and employing its energy technologies, over two-
thirds of which have been from private financing.
    This collective private and public investment has produced 
breakthrough technologies that are ready to power our 21st 
century economy. Given the power density advantage you see and 
even feel when you actually feel these wires and cables, it is 
going to carry 10 times more power through cables of the same 
size made with copper. This is a tremendous benefit for our 
cities where power demands continue to rise rapidly and 
underground real estate is severely congested.
    Grid modernization with superconductor cables and other 
energy technologies, including advanced power electronic 
converters we also manufacture, will provide the capacity 
needed for the wide use of plug-in electric vehicles. They also 
will reduce the likelihood of blackouts such as the one that 
hit the Northeast in 2003.
    In addition, superconductor cables can add a layer of 
defense in the grid to protect our centers of commerce from 
severe weather or intentional acts of destruction. The 
superconductor cable project we are currently working on for 
Consolidated Edison's grid in New York City, for example, is 
the first leg of what will be the Internet of power in 
Manhattan and cities around the U.S.
    Superconductor technology is also being applied in a 
significant way to zero emission wind generated electricity. We 
have in fact begun work on a program to effectively double the 
power capacity of today's wind turbines utilizing the power of 
superconductors. The largest wind turbines on the market today 
are rated at 5 to 6 megawatt. The generators in these turbines 
are massive, weighing hundreds of tons. In fact, they are so 
large you cannot even carry them over the roads. Superconductor 
technology is able to break through that by using this power 
density advantage to shrink down the size of the generators so 
that we can actually migrate over to 10 megawatt wind turbines. 
The impact, to put this in perspective, a single 10 megawatt 
turbine could provide electricity for thousands of homes and 
eliminate 15,000 tons per year of CO<INF>2</INF> generated by 
the mix of fossil plants in use today.
    We will soon be taking the next phase of this project 
forward, which is to design the complete wind turbine and then 
build and test a prototype before commercializing the wind 
turbine. Our work will demonstrate that superconductor 
technology is the disruptive technology needed to significantly 
reduce the cost of wind power and enable broader deployment of 
this zero emission form of electricity.
    In summary, superconductor technology is a fundamental 
weapon in our arsenal to lower the cost of energy, reduce 
harmful greenhouse gas emissions, and meet the goal of having 
wind supply 20 percent of our electricity needs by 2030.
    I thank you for your time and attention.
    [The prepared statement of Dr. Yurek follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    The Chairman. Thank you, Dr. Yurek, very much.
    Our next witness is Dr. Andrew Frank, who joins us from the 
University of California at Davis, where he is a professor in 
the Mechanical and Aeronautical Engineering Department. He has 
specialized in the development of fuel efficient hybrid 
electric cars and is widely known as the father of the plug-in 
hybrid vehicle. It is our honor to have you with us here today, 
Dr. Frank.

   STATEMENT OF DR. ANDREW FRANK, PROFESSOR, MECHANICAL AND 
  AERONAUTICAL ENGINEERING, UNIVERSITY OF CALIFORNIA AT DAVIS

    Mr. Frank. Thank you. Father means I am an old guy. I think 
that is what it means.
    Okay, deployment hybrid vehicle I think was mentioned 
earlier. What is it? And what could be its impact on society?
    This is what a plug-in hybrid is. It takes energy from the 
wall and displaces gas, oil, gasoline. And if you do it right, 
you could take 90 percent of the energy to drive a car on an 
annual basis from the wall and only 10 percent from gasoline. 
Does that mean we are going to put the oil companies out of 
business? I don't think so because oil is still a very 
important commodity worldwide, and the issue is we can use oil 
for other things.
    But the most important things, once we shift from using oil 
to electricity, we can go to using solar, wind, and biofuels to 
power our entire fleet. We can't use biofuels to power our 
fleet today because we use too much of it, but when you use 
this kind of thing, you are displacing oil, 90 percent with 
electricity, then that 10 percent can be supplied by biofuels 
and we have enough land to do that.
    Now what is this impact in the future? Here is a little 
issue of the price of--this is for the price for a tank of gas 
essentially. If you don't go to something like plug-in hybrids, 
the price of gasoline is going to continue to go up, and there 
is no doubt about that. You can be pessimistic or you can be 
optimistic, it is going to go up. But with plug-in hybrids we 
can level the cost, and we can begin to bring it down with 
solar and wind.
    Current movement in plug-in hybrids, there is already 
movement, General Motors, Ford, all the car companies are 
thinking about it. They are moving much slower than we need, 
but the most important thing is new car fleets cannot replace 
cars and make them into plug-in hybrids fast enough to do any 
good for our country. It would take 20 years to displace a 
fleet to get enough cars out there to displace oil.
    By the way, the key is not oil fuel efficiency, the key is 
oil displacement.
    I see Mr. Sensenbrenner left, but what we want to do is to 
displace the use of oil for energy and not displace the use of 
oil. The oil could be used for other commodities, like this 
right here is made out of plastic. That is what we should be 
using oil for. This is what we should be using coal for. As a 
matter of fact, we can use oil and coal to replace 2 by 4s. And 
if we did that we would save the forest too.
    So let's let the oil companies pump, and let's not use oil 
and coal for combustion. This is the key.
    So how do we accelerate--oh, one quick thing, there are all 
kinds of plug-in hybrids. Plug-in hybrids can range from 10 
miles all electric to 60 miles all electric. And I have built 
cars all along the range. If you have a plug-in hybrid that 
only has a 10-mile all electric range, that kind of car may 
displace only 10 percent of the oil with electricity and be 90 
percent oil. But if you use--go to 60 miles, that will give you 
a car that will displace 90 percent of the gasoline used with 
electricity and use only 10 percent on an annual basis. And 
that is the key difference. This is a range of plug-in hybrids 
out there. General Motors actually is building the Volt, which 
is on the right-hand side and the Vue, which is on the left-
hand side.
    How do we accelerate plug-in hybrids introduction? This is 
the key. We have to accelerate. So what we need to do really is 
to focus on legacy vehicles and modify those as well as focus 
on new vehicles, because a new car fleet cannot give us a 
displacement of oil fast enough to counter the rise in the 
price of oil.
    We have also an improvement in the grid. The plug-in hybrid 
can improve the grid because it represents energy storage. Our 
electric system, as pointed out by a previous speaker, hasn't 
changed since Edison. And this is a possibility for change. 
Once we have a plug-in hybrid it has energy storage capability, 
and we can improve the grid by almost 50 percent because we no 
longer need peaking plants, and this is the key.
    So finally, how are we going to accelerate? I formed a 
company with patents from UC Davis, and we will work with 
government and industry to try to move this plug-in hybrid as 
fast as we can, but you know, no matter what we do in this 
country, we are only one of--we may be the major consumer. But 
don't forget that China is almost consuming as much as we are 
and they will exceed us in the next few years. This is a 
worldwide problem. This is not only this country. We should be 
the leaders, and that is where we are going. The most important 
thing is we need government support.
    [The prepared testimony materials of Dr. Frank follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    The Chairman. Thank you, Dr. Frank, very much.
    Our next witness is Dr. Ari Patrinos. He is the President 
of Synthetic Genomics, a private company that uses genomic 
solutions to address global energy challenges. He previously 
played a historic role with the Human Genome Project and then 
was Director of Department of Energy's Office of Biological and 
Environmental Research.
    We thank you, sir, for being here. Whenever you are ready, 
please begin.

STATEMENT OF DR. ARISTIDES A. N. PATRINOS, PRESIDENT, SYNTHETIC 
                            GENOMICS

    Mr. Patrinos. Thank you, Mr. Chairman. I am honored to 
speak before this select committee in representing Synthetic 
Genomics, a company that was started by my colleague Craig 
Venter, a pioneer in the field of biology and dedicated to 
providing genomic solutions for our energy and environmental 
problems.
    We are obviously at a very important crossroads with 
respect to the challenges we face in energy and climate change, 
and we have daunting energy and environmental problems. As an 
example, we import about 600 million tons of crude oil every 
year, essentially last year, and mostly from politically 
unstable parts of the world.
    Moreover, the Intergovernmental Panel on Climate Change 
tells us unequivocally that the climate system is warming as is 
now evident from observations of increases in the global 
average temperature over the oceans, in land, and in the air; 
and that CO<INF>2</INF> and other greenhouse gasses are 
responsible for this climate change.
    There have been some encouraging signs recently, like the 
G8, for example, agreeing to have emissions by the year 2050, 
which was the first for the Bush administration. They didn't 
say exactly which emissions they will have, but at least it is 
a step in the right direction. The EPA just this month issued a 
report claiming and explaining how climate change could have 
deleterious affects on human health and other very significant 
firsts. And ongoing, and I am very honored to be involved in, 
is a National Academy of Sciences study on America's energy 
future, which has climate change and energy security as its 
principal drivers.
    We need to change the ways we produce and use energy and we 
need to accomplish a net zero carbon emissions into the 
atmosphere. That does not mean that we can't burn coal or other 
fossil fuels. It just means that the CO<INF>2</INF> needs to be 
sequestered or, better yet, converted, as I would say, into a 
renewable fuel, which is one of the revolutionary disruptive 
technologies that we believe we will accomplish.
    As the committee believes, we also know that there is it no 
silver bullet with respect to solving this problem. It is more 
a silver buckshot and all technologies need to be improved.
    Even if we make significant improvements, it will be 
difficult to remove about 100 billion tons from our economy 
over this particular century. However, advances in genomics, we 
believe in specifically synthetic genomics, which is the field 
Craig Venter pioneered, is in fact one of the real game 
changers that can help us accomplish this goal.
    Dr. Venter and his team have pioneered this field and will 
lead to the design and synthesis of microbial systems that can 
provide superior capabilities in converting various feedstocks 
into biofuels. Recent research by Dr. Venter and others have 
uncovered an incredibly diverse microbial world that was 
heretofore unknown. We have discovered microbes, extremophiles 
we call them, that thrive in extreme temperatures, high 
temperatures, and high pressures, and can survive levels of 
radiation that are instantaneous lethal to us.
    By studying those organisms we can uncover or discover the 
molecular scenery of life which we can then provide, we can 
then apply it to quickly and efficiently convert various 
feedstocks into fuels.
    We have a deal with the company BP, for example, to convert 
coal bed methane into natural gas, and thus provide a fuel that 
is much cleaner than removing the coal from the ground. It is 
still a fossil fuel, but in terms of its global warming 
potential it is a step in the right direction.
    We are also aggressively pursuing the conversion of various 
plant feedstocks, sugar and cellulose, into a wide range of 
next generation fuels that are superior to the traditional 
fuels such as ethanol and biodiesel.
    We need to move beyond using foodstuff, such as corn, for 
the production of biofuels. For example, there are plants like 
jatropha that do not compete with food that can grow in 
marginal lands and can serve as feedstocks for biodiesel.
    We have a deal also with a Malaysian company Genting 
Asiatic to work on jatropha in order to improve the yield and 
capability of producing biodiesel. Ultimately the disruptive 
technological goal is to use carbon dioxide as a feedstock. And 
there we are making significant advances using micro algae and 
other microbial cultures that would be in essence the Holy 
Grail in bioenergy to use something that we need to squirrel 
away in the Earth. Instead, we can actually convert it into a 
fuel.
    We recognize there will be problems scaling up in order to 
replace or challenge the existing infrastructure, like for 
example 21 million barrels of petroleum that we process in our 
infrastructure here in the U.S. every day, or 2 trillion cubic 
feed feet of natural gas every month. However, we are confident 
that we can pilot our liquid biofuels within 2 years and go 
into large scale production within 5 years. And if we can 
accomplish these things that we feel confident with, I think we 
can accomplish stabilizing concentrations of CO<INF>2</INF> 
under 550 parts per million. We----
    The Chairman. If you could summarize.
    Mr. Patrinos. Yes, indeed.
    We advocate essentially the level playing field with 
respect to biofuels, the removal of tariffs and subsidies that 
distort the marketplace, as well as sensible regulations for 
the synthetic biology and synthetic genomics technology that we 
have developed.
    Thank you for the opportunity to testify.
    [The prepared statement of Mr. Patrinos follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    The Chairman. Thank you, Dr. Patrinos.
    Our final witness is Steve Lockard, as the President and 
CEO of TPI Composites, a leading manufacturer of wind energy 
components. Mr. Lockard has experienced firsthand the impact 
renewable energy can have on local communities and economics.
    We are very happy to have you with us, sir. Whenever you 
are ready please begin.

        STATEMENT OF STEVEN LOCKARD, PRESIDENT AND CEO, 
                      TPI COMPOSITES, INC.

    Mr. Lockard. Thank you. Good afternoon, Chairman Markey, 
Mr. Sensenbrenner, members of the committee. Thank you for the 
chance to join you this afternoon to talk about a tremendous 
opportunity to renew America's future through the creation of 
U.S. manufacturing jobs to supply the rapidly expanding wind 
energy industry. I am appearing before this committee as a CEO 
of TPI Composites and as a corporate member of the American 
Wind Energy Association. TPI is a manufacturer of blades for 
leading wind turbine makers.
    Wind energy has now moved into the mainstream of U.S. 
electricity generation. Wind represented 35 percent of all new 
U.S. electrical generation equipment installed in 2007 and 
generated $9 billion of U.S. commerce. The dramatic recent 
growth in the wind industry is just the beginning. Today wind 
electricity accounts for a little over 1 percent of our 
Nation's generation capacity. According to a U.S. DOE report, 
wind power could provide 20 percent of U.S. electricity needs 
by the year 2030, which would create 500,000 U.S. jobs and 
provide a critical contribution to the climate solution. With 
this potential growth in wind comes a tremendous opportunity to 
create a complete supply chain.
    Since 2007, 28 new wind industry manufacturing plants have 
opened or been announced in 15 States. By the end of this year 
the U.S. will have a total of 11 wind blade manufacturing 
locations, employing over 5,000 people. In 2005, there were 
only two U.S. facilities.
    TPI selected Iowa for a blade plant because of its ability 
to serve the north central wind region. We selected Newton, 
Iowa specifically due to the available, skilled workforce and 
the support provided by the State and local community. Newton 
is a city of about 16,000 residents. For many years Maytag 
washers and dryers were made there. Maytag also maintained its 
corporate headquarters in Newton.
    After being acquired by Whirlpool in 2006, the remaining 
1900 employees in Newton lost their jobs, the last of which in 
October of 2007. TPI announced plans 1 month later to open a 
wind blade manufacturing facility in Newton. We committed to 
create a minimum of 500 jobs to manufacture blades for our 
customer GE Energy. The impact that TPI has had on the Newton 
community and economy, according to its Mayor Charles Allen, 
was to add jobs at a crucial time, paying competitive wages, 
providing great benefits to many who just months earlier were 
questioning their ability to stay and work in the area.
    Allen also noted that TPI primed the pump, causing all wind 
turbine related companies to consider Newton. Trinity committed 
to adding 140 jobs in Newton to both towers for wind turbines. 
The wind energy industry has restored a sense of hope to this 
manufacturing community. The value according to Mayor Allen is 
immeasurable.
    Competing with Mexico, China and even Brazil with wind 
blades is difficult. It comes down to a tradeoff between labor 
costs, transportation costs and incentives. Meaningful cash 
incentives at the front end of these projects in many cases are 
required to get a U.S. plant approved.
    Another critical need for U.S. competitiveness is for the 
volume to be high and, most importantly, to remain stable. It 
is impossible for U.S. blade plants to be competitive when 
demand swings up and down. To achieve this desired economic and 
energy growth, the U.S. will need to surmount important 
challenges, planning and building transmission lines, providing 
a stable Federal policy support, reducing capital costs, 
continuing to build wind turbine manufacturing capacity.
    Federal policies needed to advance wind energy and reduce 
climate change include an immediate and full value extension of 
the wind energy tax credit, a national renewable electricity 
standard, a national electric transmission plan designed to 
promote renewable energy and climate change legislation.
    Increases in Federal R&D funding and related appropriations 
to spur continuing innovation will be needed to bring down 
capital costs. The outlook for 2009 is bleak due to the pending 
expiration of the PTC. Already the delay in extending renewable 
energy credits is reducing investment in wind energy projects 
scheduled to come online in 2009.
    A long-term PTC extension will enable the wind industry to 
continue our rapid growth, generate higher volume and more 
stability and demand, provide investors with the confidence 
needed to fund new regional manufacturing facilities. There is 
broad support across the political spectrum for extending the 
credit. It is absolutely critical that this Congress act 
quickly to find a way through the current impasse and enact a 
full value of long-term extension to the PTC. This is the 
starting point for U.S. job creation, a healthier economy and a 
cleaner energy future.
    Thank you.
    [The prepared statement of Mr. Lockard follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    The Chairman. Thank you, Mr. Lockard, very much.
    The Chair will now recognize himself for a round of 
questions.
    Mr. Lockard, last year 35 percent of electricity, new 
electricity, came from wind. That was about 5,400 new 
megawatts. How many new megawatts will be put online this year, 
do you know?
    Mr. Lockard. It is an increase from that number, estimated 
to be probably 20 percent more than that or so.
    The Chairman. So, perhaps 7,000 megawatts this year?
    Mr. Lockard. On the order. Those numbers tend to be refined 
a bit toward the tail-end of the year. What I would say is 
there is a tremendous push----
    The Chairman. It could go over 40 percent of new electrical 
generation?
    Mr. Lockard. It will increase for sure.
    The Chairman. For sure. That is quite a news story. 
Combined with what Dr. Yurek is talking about with his 
technology, that might make it possible for the same old 
turbines to generate 10 megawatts of electricity.
    And how confident are you, Dr. Yurek, that you are going to 
be able to make that breakthrough and what is the time frame?
    Mr. Yurek. We are very confident. If I look at that poster 
to your right over there, that is a ship propulsion motor we 
are putting together for the U.S. Navy based on the same power 
density advantage of superconductors over copper. 75-ton motor 
replaces a 300-ton conventional motor for ship propulsion. We 
are using that same technology to develop generators----
    The Chairman. What is your time frame?
    Mr. Yurek. Three or 4 years we will have that done.
    The Chairman. So Dr. Frank over here has a plug-in hybrid, 
he needs electricity and your industries, you and Mr. Lockard, 
providing this new electricity that would also be carbon free.
    Let me ask this question of the whole panel. Given what we 
have heard today from the panel, do you believe that it is 
possible for the United States, deploying new technologies and 
engaging in energy efficiency, to reduce our greenhouse gasses 
by 80 percent by the year 2050 while still seeing economic 
growth and innovation as the driving characteristic of our 
economy? Ms. Zoi.
    Ms. Zoi. Without a doubt, without a doubt. Of course we can 
do that.
    The Chairman. Dr. Yurek.
    Mr. Yurek. I think it has every chance in the world if we 
get going now.
    The Chairman. Dr. Frank.
    Mr. Frank. Well, you know the--it is possible, but it 
cannot be done without energy storage, electrical energy 
storage, and that is what the plug-in hybrid really represents.
    The Chairman. So if we adopt your ideas, can we get an 80 
percent reduction?
    Mr. Frank. Yes, you can.
    The Chairman. That's the key. Dr. Patrinos.
    Mr. Patrinos. Absolutely and much sooner than even our most 
optimistic----
    The Chairman. And again your company is the one that 
basically cracked the human genome, I mean, Dr. Venter and 
yourself were making that huge breakthrough that would have 
been incomprehensible just 10 or 15 years ago.
    Mr. Patrinos. Indeed.
    The Chairman. Mr. Lockard.
    Mr. Lockard. We are happy to see wind contribute to 20 
percent or more than that in that time frame.
    The Chairman. Do you think that is a conservative number, 
Mr. Lockard?
    Mr. Lockard. I think there are major issues in the wind 
energy space to get to 20 percent. Transmission is a 
significant issue. There are a number of issues that we need to 
address together, assuming we address those in a big way, there 
is limitless potential for wind. The question is getting to 
work on some of the big constraints to 20 percent. We have 
identified those constraints.
    The Chairman. Let me get back to you, Ms. Zoi, talking 
about solar, and you made a mention of it. Can you talk a 
little bit about that and the role that you believe that can 
play in solving this greenhouse gas problem?
    Ms. Zoi. The world is rich with solar thermal, which we can 
put in the sunny places in the Southwest that I mentioned, but 
also photovoltaic. I live in Silicon Valley, and just about 
every week a company has a new announcement about a way to make 
solar voltaic sunlight directed electricity more efficiently. 
They are now making it in rolls where they can roll out 100 
feet at a time sheets of solar of which you can put anywhere.
    The Chairman. There is a company up in Boston, Evergreen, 
the Germans just bought their entire production capacity for 
the next 4 years, 160 megawatts of photovoltaics per year, and 
the Germans bought it, which is a shame. This should be 
happening more and more in the United States. What is the 
roadblock to that, Ms. Zoi, in your opinion?
    Ms. Zoi. Well, we do need--one of the reasons that I had 
talked a lot about the supersmart grid is that we do need to be 
able to get the power from where it is generated, often in 
remote places, to where it is consumed, often big cities. 
Investing in that supersmart grid is something that is 
important. The storage technologies that were mentioned by my 
copanelists, but again that is all doable and within our reach.
    The Chairman. Let's go to you, Dr. Yurek. You are the 
expert on electrical transmission issues. What is the biggest 
obstacle in ensuring that we get the change in the electrical 
transmission system that we need in our country?
    Mr. Yurek. Well, I think the superconductor electricity 
pipelines are really ready to break into the marketplace on 
their own. Utilities really need to start investing in this, 
and that is about to happen. But we need to push across that 
last 10 yards to get across the goal line in demonstrating this 
technology for broader use.
    The Chairman. I have been working with you for 20 years 
now, Dr. Yurek, on this issue. Do you think we are at that 
point right now?
    Mr. Yurek. We are definitely at the tipping point. Again we 
have cables operating commercial grids in Columbus, Albany, 
Long Island. We are about to go into Midtown Manhattan. So we 
are really at that tipping point. We just need to cross that 
goal line. I think that is going to happen in a couple of 
years. So that will become available as electricity pipelines 
to move that power through the grids.
    The Chairman. And in conclusion, how much are utilities 
still fighting you on this? I don't mean Long Island, but 
across the country. Is there an acceptance of the need for 
change to redo this grid?
    Mr. Yurek. Oh, I absolutely believe that. The utilities are 
not fighting it. It is a matter of adoption of new 
technologies, and so the help that we have gotten from the 
Department of Energy and Defense and Homeland Security over the 
last years has helped bring that technology out of the lab to 
the marketplace. We now have just got to get across that goal. 
They are ready to go.
    The Chairman. Over the years I have worked with you on the 
military adoption of it, but you now think it is ready for the 
commercial.
    Mr. Yurek. Absolutely, and the utilities are now working 
with us on commercial quotes in fact, so it is about to get 
going.
    The Chairman. Thank you, sir. The gentleman from Arizona, 
Mr. Shadegg.
    Mr. Shadegg. Thank you, Mr. Chairman. I apologize for 
arriving late. Had I gotten here on time, I would have welcomed 
Steve Lockard. I used to represent a part of Scottsdale where 
his company is located. However, they took that little piece of 
Scottsdale away from me. But nonetheless, he is from the valley 
of the sun, and I welcome him here and thank him for the work 
his company is doing.
    I want to say, Mr. Chairman, this is a very impressive 
panel and it continues to encourage me. When you look at the 
technological breakthroughs we are making and that we are on 
the verge of, it is indeed very encouraging, and I have enjoyed 
the education that I have gotten here.
    I have got a number of questions, but I want to begin with 
one, Mr. Lockard, that kind of goes to the point you made. I 
want to compliment you for the jobs you created and the story 
you told about the plant. I presume your blades are on the 
windmills that I pass as I drive to either San Diego or Los 
Angeles to Phoenix and go through the field of windmills.
    Mr. Lockard. Some of them. More recently in west Texas, but 
yes.
    Mr. Shadegg. Keep it up. It is good work. I am very, very 
pleased to see you say it, but I want to build on a point you 
made. You talked about the very critical importance of renewing 
the wind energy production tax credit. As you know, as you 
pointed out, that expires this year. We also have the solar 
energy production tax credit or investment tax credit, which 
also expires at the end of this year, and which tragically just 
today Arizona Public Service Company announced that if the tax 
credit is not renewed very, very quickly they are losing 
capital and may have to abandon the Solana project, which is 
the largest solar energy project in the world.
    I am willing to bet that every single person in this panel 
will agree with me that it is critical that Congress renew 
those tax credits and do so immediately and that every day we 
delay causes us to lose capital. Would you agree, Mr. Lockard?
    Mr. Lockard. Absolutely. And we do support as part of it 
and not just wind but the renewable sector in terms of support 
of tax credits. It is an important level of playing field, 
policy stability is critical, and we are without it right now.
    Mr. Shadegg. I just met with the Arizona Solar Energy
    Industry Association. They talked about something I hadn't 
thought about, which was even the delay is driving capital away 
and doing material damage right now. No one, I take it, would 
disagree with that?
    I don't want to run out of time. I am fascinated by this 
demonstration and it is encouraging to see that we are at that 
cutting edge. Dr. Frank, I focused for a long time in Arizona, 
we have dams where we actually created what are called pump 
back systems, where you take the peak load and they run all day 
and they run in the evening, when Arizona has a high energy 
demand. And then when demand goes way down at say 10:00 or 
11:00 or midnight, we now pump water from one dam back up to 
the other. It looks to me like hybrid electrical vehicles, 
plug-in electricals have a tremendous capability of kind of 
evening out the demand for electricity. And I guess that is an 
important part of this whole process, right?
    Mr. Frank. Absolutely. The main difference is that the 
plug-in hybrid, the electric vehicle, can be about 90 percent 
efficient, pumping energy back and forth at 1 kilowatt, whereas 
those dams are about 60 percent efficient. So it is a better 
technology. Most important thing about electricity, don't 
forget that it is about one-eighth of the cost of gasoline 
today. That is the key. So that is where quality of life 
improvement and all this comes from is from using electricity.
    Mr. Shadegg. Dr. Patrinos, you really kind of piqued my 
curiosity. I have to tell you that I am somewhat of a skeptic 
about the notion of capturing carbon and putting it underground 
and storing it forever. And so when you talked about, I don't 
know if you called it the nirvana or the----
    Mr. Patrinos. The Holy Grail.
    Mr. Shadegg. The Holy Grail of being able to convert carbon 
dioxide into a usable energy source that sounds exciting to me. 
Can you go further into where we are in that process?
    Mr. Patrinos. We are well underway towards accomplishing 
this and having certainly a pilot project within the next 
couple of years. This is a method that has had some history, 
especially in the Department of Energy as long ago as 15 years 
ago through the use of algae that essentially take sunlight and 
the CO<INF>2</INF> that gets pumped in them, and grow and then 
we can farm them, basically, remove the oil and create 
biodiesel.
    Mr. Shadegg. And they are fed by carbon dioxide.
    Mr. Patrinos. Yes, they are fed, it is a photosynthetic 
creature that essentially combines the sunlight with the 
photons with the carbon dioxide and provides the biomass that 
is then converted into fuel. This program was abandoned back in 
the nineties at the Department of Energy when oil dropped under 
$10 a barrel. Also at the time biology was still in a very 
primitive stage. The revolution that the Human Genome Project 
ushered in has converted the science into a much more rigorous 
discipline. And therefore the tools and capabilities we have 
today are vastly superior to what we even had in the nineties. 
And moreover, many more smart people, essentially attracted by 
the fascination, like you were a few minutes ago, and joined 
this field.
    So we are extremely bullish about what biology can do for 
many of our problems.
    Just as a note this plant is bathed by 130,000 trillion 
watts. And we are using as a planet 13 watts.
    Mr. Shadegg. My time is obviously out, the chairman has 
been generous. Arizona Public Service Company has already 
talked to me about a program using microbes, and I think the 
future is nothing but encouraging.
    Mr. Patrinos. I am aware of that program, George Post, at 
Arizona State University.
    Mr. Shadegg. Thank you very much.
    The Chairman. The gentleman's time has expired. The Chair 
recognizes the gentleman from New York, Mr. Hall.
    Mr. Hall. Thank you, Mr. Chairman. As I understand it, the 
ACSC wire has the ability to carry 300 percent of the 
electricity of standard copper wire. Is it safe to say that if 
we jumped in behind this technology with both feet we could 
expand transmission capacity on existing rights-of-way? Would a 
wholesale commitment to a semiconductor transmission grid help 
to obviate the need for things like the national interest 
electric transmission corridors or perhaps make them more 
acceptable to the communities that they have to run around or 
through?
    Mr. Yurek. Well, once again going to the power density 
difference that you just described and you can feel here again, 
yes you can use existing rights-of-way, electricity pipelines, 
300 feet gets shrunk down to 4 feet in terms of the right-of-
way. So you can go underground, you are not subject to 
hurricane damages, you are not subject to ice storms, terrorist 
attacks and so forth. You can do all the things you said.
    Mr. Hall. EMP?
    Mr. Yurek. Yes, indeed.
    The Chairman. It is immune if it is buried to 
electromagnetic pulse.
    Mr. Yurek. You have the burying effect, plus these tend to 
be coaxial cables so there is a self shielding effect as well.
    Mr. Hall. Thank you. Dr. Frank, you talk about plug-in 
hybrids. Are there any conversion kits you are aware of so far 
that are worthy of public consideration? If an individual like 
myself who owns a hybrid, there are a number on the Internet 
that are being advertised, are you aware of any that are----
    Mr. Frank. Yes. The hybrid could be converted to plug in 
hybrids simply by adding batteries. Now, it is going to cost 
you 10, 20, 10, $15,000 more to do that, but the important 
thing in my testimony what I was talking about was legacy 
vehicles, conventional cars can also be converted. There are no 
companies doing this in volume today. It can be done.
    Mr. Hall. And that will be important considering the time 
it will take to switch our existing----
    Mr. Frank. Absolutely. So the most important thing is to 
get those legacy vehicles converted to using electricity.
    Mr. Hall. And if someone were to produce a patent for a 
battery that got--that could carry a vehicle on all electric 
charge before it starts to use the gasoline a thousand miles or 
more, that would be considered to be a breakthrough I would 
say. No?
    Mr. Frank. Well, that would be a huge--but that is not in 
the cards as far as we can see. You might be able to get 60, 70 
miles on electricity, but to go much more than that, Tesla 
talks about 200 miles, but one of the biggest things about the 
Tesla car is that they forget, they don't tell the whole story. 
They talk about high acceleration and high range, but you can't 
have both. When you accelerate hard, your range goes from 200 
miles to 100 miles. So there is problems with all electric.
    Mr. Hall. Given the grid that we are talking about 
constructing that all of you I think have mentioned at one time 
or another, might there be a silver bullet if we were to use in 
the areas where we have constant sun or near constant sun or 
steady reliable winds such as the Wind Belt through the middle 
part of the country and on the coast to use hydrogen as a 
storage device? We know how to store and cool and transport 
hydrogen much better than we did during the time of the 
Hindenburg which was the Three Mile Island of the hydrogen age. 
And it is of course a loss in efficiency every time you go back 
and forth from one form of energy to another, but nonetheless 
some of the same siting that would go into siting a nuclear 
plant or perhaps even a coal plant might apply to a hydrogen 
storage and generation plant, which could be used to store via 
electrolysis, splitting hydrogen from oxygen in the water and 
then burning it, producing emission water at the end of the 
process.
    Again, is this something that we should be looking at, at 
least in areas like Lake Havasu or places where the sun shines 
and there is plenty of water?
    Mr. Yurek. Yes, go to a remote site whether it is wind or 
solar, generate the electricity, do the electrolysis, make the 
hydrogen, condense it to make liquid hydrogen, which will cool 
the superconductor wire. So we can pump it out and you get 
hydrogen and electricity out the other end.
    Mr. Hall. Better than I thought.
    Mr. Yurek. Yes, the provision for that from Electric Power 
Research Institute.
    Mr. Frank. I will add my two bits. The problem with 
generating hydrogen, you are converting, as you know, the loss 
efficiency. If you compare a hydrogen economy versus a plug in 
hybrid, where you are using electricity directly, the hybrid 
car will go four times farther than a hydrogen car.
    The Chairman. The gentleman's time--I am sorry.
    Mr. Hall. I yield back.
    The Chairman. I appreciate that, because we have six roll 
calls. This is a fantastic panel. We have a chance to recognize 
the gentlelady from South Dakota for her questions, but my 
intent, with the will of the committee agreeing with that, is 
that we would come back after roll calls as we continue to ask 
this panel questions. And I apologize to the members because of 
that. The gentlelady is recognized.
    Ms. Herseth Sandlin. Thank you, Mr. Chairman. I thank the 
witnesses for their testimony today. I would like to pick up on 
questioning along the lines of transmission for wind energy 
that the chairman and Mr. Hall were pursuing.
    I represent the entire State of South Dakota. We are rich 
in wind energy resources, but they are very rural, remote areas 
and transmission is the key along with the PTC and other 
incentives to unlocking, unleashing this energy source.
    I would like to get your opinions on the energy corridors 
that will be needed. Mr. Hall was asking about that. We have 
some FERC authority for additional siting of the corridors that 
the DOE has put together, started the work on the map for the 
transmission. But also this issue of private investment versus 
the public infrastructure investment like the interstate 
highway system and on the timeline we are working on. And just 
maybe Mr. Lockard, Dr. Yurek and Ms. Zoi, if you could comment 
on your thoughts about the private investment, will that be 
sufficient without additional congressional support and 
guidance? And does FERC need any additional authority as it 
relates to siting the energy corridors?
    Mr. Yurek. If I may comment on that, the FERC would allow 
toll roads to be put in place with a private investment and 
then charge a toll for moving the electricity. You can't do 
that in our alternating current grid, you disturb power flows 
through very wide regions.
    However, with superconductor cables, the ones I am showing 
up here, you can actually allow that control, they act like DC, 
direct current cables. So the FERC has already given permission 
for DC cables made with copper. I believe they should be able 
to give that for superconductor alternating current cables 
which would allow them to do exactly what you want. And then 
you would have encouragement for private investment, because if 
I can put that cable system in to take power from South Dakota 
to Chicago and somebody will pay me a fee for that, I will make 
the investment.
    The Chairman. If the gentlelady will yield. There is only 3 
minutes left on the 6 roll calls. If the gentlelady would like 
to continue at this point she can at the risk of----
    Ms. Herseth Sandlin. How about I resume my time when we 
come back from votes?
    The Chairman. Why don't we stop right there with the 
gentlelady having 4 minutes left to go? And we will come back, 
if you don't mind. It is really a great, great panel and there 
is a lot of interest in it. We will take a recess until the six 
roll calls are completed.
    [Recess.]
    The Chairman. We are about to reconvene the Select 
Committee on Energy Independence and Global Warming. The 
interest level is high; our control over the floor schedule is 
low. As a result there is a delay that we apologize to everyone 
for having to endure.
    But it gives us a chance to once again recognize the 
gentlewoman from South Dakota, and we will give her her full 5 
minutes back on the clock.
    Ms. Herseth Sandlin. Thank you, Mr. Chairman.
    Just to start off where we left off, any other responses on 
the wind--the transmission capability issue and the issue of 
private investment versus maybe more of the public investment, 
like we have done with the interstate highway system.
    Ms. Zoi.
    Ms. Zoi. I will chime in my 2 cents.
    I think the notion of a supersmart grid or national 
integrated grid is a great opportunity for the Congress. I 
think that the technologies are available; we have heard about 
some of them today.
    If the rules are set, I don't think access to capital is 
going to be the issue. I think what is paralyzing us now are 
the institutional barriers. We have got fights between the 
Federal Government and the State governments. We have fights 
between the various land authorities at the State level. We 
have got fights between environmentalists on the one hand and 
environmentalists on another hand with different issues.
    And there is just such an opportunity for you all to lead 
and say, this has got to be the grid, which has never been a 
really sexy thing. But the grid has got to be a top priority, 
and let's sit together and hash it out.
    Ms. Herseth Sandlin. Thank you.
    And, Dr. Yurek, I appreciated your comments before we had 
to break about how the technologies that you have been working 
on may make some of this easier as it relates to authority FERC 
currently has versus what may be necessary if we don't move as 
quickly as we should with some of the new technologies that you 
have been at the forefront of.
    Mr. Yurek. Yes, and I think part of the challenge here is 
that FERC and other agencies, regulators, even Congress, really 
don't know what is available. This hearing is so valuable to 
reveal some of the new things that are possible. Once you take 
that into account, we could start implementing.
    Ms. Herseth Sandlin. That is a good segue to my question 
for Dr. Patrinos in terms of Congress or Federal agencies or 
regulators not knowing what is available.
    I wanted to talk to you about advanced biofuels. Your 
written testimony states that you are optimistic that within 5 
years SGI can move to large-scale--and by that I assume you 
mean commercial scale--production of liquid biofuels.
    You should know when this Select Committee met in June we 
took testimony from Guy Caruso, the Administrator of the Energy 
Information Administration, and he testified that while, ``very 
uncertain, EIA projected that available quantities of 
cellulosic biofuels prior to 2022 will be insufficient to meet 
the new RFS targets for cellulosic biofuels triggering both 
waivers and a modification of applicable volumes,'' such that 
the overall RFS target in 2022 would be reduced from 36 billion 
gallons to 32.5 billion gallons. At the same time, he 
acknowledged in response to questioning that EIA's assessment 
was based on the view of the current state of the technology.
    Do you agree with EIA's projection or do you agree that its 
view is unduly pessimistic, particularly as it relates to the 
quantities of cellulosic biofuels that would be commercially 
available, as envisioned by the original RFS--not the original, 
but the new RFS that we passed in December.
    Mr. Patrinos. I agree that the organizations such as the 
IEA and the EIA--and I have good friends and colleagues in both 
organizations that I have worked with for many years; these 
organizations have to be conservative in their projections.
    I certainly disagree about their pessimism with respect to 
the ability of this new science; genomics-driven bioenergy, can 
deliver much, much faster than they are predicting, and in a 
sense, they are projecting on the basis of old technology that 
is already in many ways obsolete.
    Ms. Herseth Sandlin. Thank you.
    Is SGI pursuing any other processes? We were just taking 
testimony yesterday as it relates to fossil fuel and natural 
gas. But renewable methane gas and biogas through processes 
such as fermentation, paralysis, gasification, is SGI pursuing 
any of that as well?
    Mr. Patrinos. I mentioned this partnership that we have 
with the oil giant BP, where we are investing considerable time 
and effort in understanding the processes by which methane is 
produced in coal beds.
    Most of the methane in coal beds is producing biogenically. 
It is essentially microbial communities that chew up the coal 
deep in the Earth and produce methane, which we then can pump 
out. Understanding how this happens can give us opportunities 
to add amendments or make other changes that can certainly 
stimulate the production significantly.
    We estimate that even 1 or 2 percent improvement in the 
yields could be translated into billions of dollars. And 
certainly it is so much better to convert the coal into methane 
and burn methane, as opposed to digging out the coal and 
burning that. In terms of its greenhouse warming potential, it 
is 10 times better when you factor in all the processes 
involved in producing CO<INF>2</INF>.
    Ms. Herseth Sandlin. I thank you for that. And one of the 
areas--and I appreciate especially, given some of my neighbors 
up in the northern Great Plains, like North Dakota and Montana 
and Wyoming with the vast coal reserves. One of the things we 
focus on in South Dakota is the issue with dairies, large hog 
farms and in some cities it is municipal waste where we can 
find renewable biogas available.
    I see my time has expired, so I will submit any further 
questions I have for the record.
    The Chairman. And if you want, we might have more time for 
additional questions.
    The Chair recognizes the gentleman from Washington State, 
Mr. Inslee.
    Mr. Inslee. Thank you.
    Ms. Zoi, thanks for your organization's great work and the 
Vice President's leadership. We are impressed by his work, even 
though he has not won the Heisman Trophy yet; he has one more 
to go.
    I want to share with you kind of a delightful comment I 
heard, or a disturbing comment. I was talking to a radio person 
the other day, and the question was, what do you think of Al 
Gore's time line, 10-year time line? And David Freeman, who has 
done great work on efficiency in California and a whole bunch 
of other things, I thought had the right response. He said, 
``It is not Al Gore's time line; it is Mother Nature's time 
line. That is who set the timeline.''
    I thought that was a good way to approach this issue. We 
really don't have a choice. Failure is not an option. And you 
might want to quote Mr. Freeman sometime. It is a good line.
    Ms. Zoi. It is a good line. I have it.
    Mr. Inslee. I wanted to ask about--we are in this debate 
about offshore drilling and whether or not to open up some 
offshore drilling areas. My approach has been, besides the 
environmental concerns of that whole issue, it is a relatively 
small amount of energy relative to our needs. My view is that 
we have to essentially decarbonize our industrial base, and 
that means we need enormous quantities of additional energy, 
not just for environmental purposes, but to give us a choice to 
compete with the oil and gas industry. Then consumers will have 
a choice, which will hopefully keep down the price of fuel.
    My view is that we need much, much more energy than could 
be provided offshore.
    I wanted to ask you, is there any way in orders of 
magnitude that you could talk about how much more energy will 
be available from the sources that you have talked about--from 
wind, solar thermal, solar photovoltaic, algae-based biofuels, 
enhanced geothermal, wave, efficiencies in the grid, building 
efficiency, which is a form of energy? Could any of you give us 
sort of an idea of how much that represents relative to what 
you might get drilling a little bit offshore?
    Now, I will not hold you to mathematical precision here, 
but to me it has to be several-fold because we would be 
replacing our gasoline-based transportation system and our 
coal-based electrical system, by and large.
    Could you venture any thoughts about that?
    Ms. Zoi. I could start. One of the reasons that Vice 
President Gore issued the challenge that he did a week and a 
half ago, 2 weeks ago, was that over the past 18 months he has 
had a series of experts coming along to solution summits in the 
particular disciplines, whether they are solar experts in 
photovoltaics and solar thermal. There were whole bunches of 
experts in each area; every single one of those experts came 
along and always would start their presentation with, And here 
is the potential, and here is what we are starting to do.
    In every single case, the potential dwarfed what our 
current needs are. So whether it was an electricity figure like 
the one I gave in my testimony, which was a 92-square-mile area 
in the Southwest can meet all of America's electricity needs; 
or winds, eight times as much wind blows through the Midwest 
corridor as what we need every year in this country; or whether 
it is geothermal. It is always just that it has absolutely so 
much potential.
    So this is not limited by the potential; it is limited by 
our ability to mobilize. And I think some of my colleagues can 
talk more about the biofuels and liquid fuels stuff.
    Mr. Patrinos. I would be delighted to step in and say my 
piece.
    I know it may sound audacious, but in my remarks earlier I 
spoke about this planet is bathed with 130,000 terawatts of 
energy. And as a planet. As humanity we consume only 13 
terawatts. And the current efficiency of photosynthesis is less 
than 1 percent. Processes involving biology and photosynthesis 
are not necessarily very efficient. Evolution does not 
necessarily produce the most efficient thing; evolution is a 
messy housewife, like I like to say.
    The new science of biology is that is driven with the 
advances of in genomics is giving us tremendous opportunities 
to tinker with that biology. And if we just even double it to 2 
percent with respect to efficiency, which may sound audacious--
it may sound a bit like science fiction--but if we can double 
it, and I think it is feasible in the next couple of decades, 
we can double the amount of energy we can produce using 
conventional solar energy and also biofuels and bioenergy. And 
that is just doubling to 2 percent.
    So there is plenty of energy there that we can harness with 
the technologies that we currently have and the technologies 
that are in the pipeline.
    Mr. Inslee. We were very impressed. You were talking about 
algae-based biofuels. There is a company called Sapphire 
Energy----
    Mr. Patrinos. I know them very well.
    Mr. Inslee. Some of their leadership is on my island in 
Bainbridge Island, and they believe they can have at least a 
precommercial plant up maybe in the next 12 to 18 months. So 
they are very close to significant reality here, and we are 
very excited about it.
    I just want--a closing comment. There are a lot of things 
happening here. Stone cold dead as it may seem, I introduced a 
bill today called ``The America Can'' bill to start the ball 
rolling to develop a high capacity grid by at least directing 
DOE to identify the corridors where that can happen.
    I think there is a fair chance of moving this bill this 
year. It is a small step forward. But we don't want to wait 
until the big year of 2009, we want to get this thing started 
now.
    Thanks for your great testimony.
    The Chairman. The gentleman's time has expired.
    The Chair recognizes the gentleman from Missouri, Mr. 
Cleaver.
    Mr. Cleaver. Thank you, Mr. Chairman.
    Dr. Yurek, in my home State of Missouri, a young man by the 
name of Tom Carnahan, whose brother is a Member of Congress, 
has a wind farm in northwest Missouri. And my question is based 
on the fact that the 10-megawatt turbine will reach 400 feet 
high. Is that----
    Mr. Yurek. Yes, the turbine blades themselves will be about 
400 feet in diameter.
    Mr. Cleaver. What do you predict in the way of challenges? 
Because, I mean, it will dwarf what many people consider to be 
already an intrusive garden of wind turbines.
    Mr. Yurek. Two ways, I guess, you could look at that. That 
is a big machine to be sure, but in fact, it is going to 
produce twice the amount of power, compared to a conventional 
machine that does not use superconductors. And so that means if 
you want to produce 100 megawatts out of a wind farm, you only 
need 50 wind turbines instead of 100 wind turbines if it is a 
1-megawatt wind machine. So you reduce the total amount of 
towers.
    You also reduce construction costs overall, and this 
becomes really important if you start producing this wind-
generated electricity offshore.
    There is a tremendous amount of wind offshore. It is going 
to be a tremendous natural resource for the country to tap 
into. And construction costs go way up.
    This is a real advantage, reducing construction costs.
    Mr. Cleaver. How many homes could actually receive power, 
potentially from one----
    Mr. Yurek. From one 10-megawatt machine you would get 
approximately 3,000 homes.
    Mr. Cleaver. So let me make sure I understand. You are 
saying that in terms of, you know, the things that--``not in my 
back yard'' kind of thing; we have seen this happen already in 
some places where we didn't think it would happen, in the 
Northeast area here, in Massachusetts. I don't want to go into 
details; I am a Democrat.
    But you are saying that we will have fewer--they will be 
larger, but the fact that we will have a fewer would generate 
less hostility.
    Mr. Yurek. I think that potential is there. On the other 
side of the equation, though, if I could put it this way is 
that the total cost of construction would be reduced. That, I 
believe, would encourage more wind farms to be established, 
because you can look for return on investments, hopefully 
quicker, with lower construction costs, for a given amount of 
power being generated.
    So I think there are two factors here.
    Mr. Cleaver. If you have less construction, one of the 
things that would cause a community to embrace these wind farms 
400 feet high is the fact that it creates jobs. And if there is 
an economy created around it--I mean, it is amazing the 
adjustments people can make if it enhances their standard of 
living. So, you know--but if we are talking about reducing jobs 
and visibility for people who live nearby, I am not sure.
    Mr. Yurek. I said reduce construction costs; I did not say 
reduce number of jobs. So you are going to have a lot of jobs 
here.
    We talked about this earlier--from blades to cells and 
generators, everything that goes into this, but the total cost 
of construction could be reduced here. That would be important 
in terms of stimulating further investment.
    Mr. Cleaver. Thank you, Mr. Chairman. I yield back.
    The Chairman. The gentleman's time has expired.
    The Chair recognizes the gentleman from California, Mr. 
McNerney.
    By the way, this is unprecedented that this many 
Congressmen came back at 4:30 in the afternoon in order to hear 
a panel. Because it is a tribute to the quality of the 
witnesses.
    Mr. McNerney. Well, thank you, Mr. Chairman. And the reason 
I came back is because I am fascinated by this. It is a 
passion. It is a direction our country must and will go in.
    And when I see people that are approaching me, saying that 
we need to drill for more oil, I tell them that within 10 years 
most of our new cars will be plug-in hybrids or all-electric 
vehicles, and the whole gas price issue will have subsided as a 
national issue.
    But we need to move forward. I hope I will not be asking 
questions that have already been asked.
    But I see how wind power, having been in the industry for 
years, as a tremendous resource. I see solar as a tremendous 
resource. And I see conservation--and I think the chairman 
agrees with me on this--as probably the greatest single 
resource that we have.
    Do you--I am not sure who to direct to this question to, 
but do you see electric vehicles and plug-in hybrids as a major 
player in our country within the next few years? And if so, how 
soon do you think that is going to be an economic prospect and 
what would it look like?
    Mr. Frank. That sounds like my question.
    The Chairman. If the gentleman would yield briefly, Dr. 
Frank is the father of the modern plug-in hybrid.
    Mr. Frank. Okay, yeah. I personally think that the plug-in 
hybrid and not pure electric cars; I think pure electric cars 
have a long way to go. There are still issues; you can't charge 
very fast and--many, many issues.
    But the plug-in hybrid is a car that can begin to 
transition, or the substitution of gasoline directly with 
electricity. And don't forget that electricity is one-sixth the 
cost of gasoline today. So as gasoline prices go up, the 
differential is going to get higher.
    The most important thing is, we have the technology to do 
that now. And the main question is, how do we get millions of 
cars out there? And by the way, millions of cars translates 
directly into jobs, because it takes people to make those 
things.
    So we have to look at the new technologies, the OEMs they 
are looking at, the General Motors with the Volt and so on. But 
we also have to look at legacy vehicles, the vehicles that we 
have already constructed, the pickup trucks sitting on the lots 
that they can't sell right today. A $25,000 pickup truck is 
selling for $12,000. There is a $12,000 difference that can be 
used for conversion of that truck to a plug-in hybrid.
    Now that, plus some help from Congress, I think, is what we 
need to think about, how to get that so that the people, if we 
bring that plug-in hybrid up to the--the pickup truck up to a 
plug-in hybrid standard, we can restore the value of that car; 
and that car can then go back into the public.
    Mr. McNerney. You feel that can be done at a lower cost 
than constructing a new vehicle with those characteristics?
    Mr. Frank. Well, yeah.
    No. Actually, here is the problem with conversions, you are 
picking a car that has already been--you put in a lot of 
capital investment; you will add more capital, half the cost of 
it again just to convert it. So somebody is going to take that 
hit, and at the moment, it looks like the bank.
    But if you build plug-in hybrids from the beginning by the 
OEMs, I calculate that when the volume gets up to a half 
million vehicles in a year or so, that plug-in hybrid could be 
par with the conventional car. Then, that is where we have to 
go. But that is not going to happen unless we get a little 
incentive to get us over that initial hump.
    Mr. Patrinos. By the way, we don't necessarily have to use 
gasoline for the nonelectrical part. We could use biofuels. So 
in a sense, we could have an entirely--based on renewable 
energy.
    Mr. McNerney. Ms. Zoi, I would like to address a general 
question. The whole climate change issue has the public's 
attention now. Do you think that that is something that we are 
going to be able to use to inspire and motivate the next 
generation to participate in scientific enterprise and move 
that as a forward strong issue for our Nation?
    Ms. Zoi. Absolutely.
    If you ever get tired of being a Congressman, you can come 
and join our team because we have exactly that in mind. We have 
this ``We Campaign''; we have already recruited nearly a 
million and a half people. And one of the things that our 
research is showing us is, across the political spectrum, 
people from all walks of life, no matter whether they are city 
or country or rural, urban, young or old, all believe in the 
promise of clean energy. Even if they actually wonder about 
some of the climate change issues, they still believe 
wholeheartedly that going on a path to clean energy is going to 
help the country and their livelihoods and their kids.
    A lot of our members, a lot of our We Campaign members, are 
young people. And we are just getting going now on a solutions 
campaign that will roll out in August, and you will see it at 
bus stops and see it everywhere, again to motivate people and 
get them excited about participating in this clean energy 
revolution that Al Gore has called for.
    Mr. McNerney. Thank you.
    I see my time has expired and I yield back.
    The Chairman. Thank you. The gentleman's time has expired.
    The Chair will recognize himself on a second round of 
questions. I want to follow up on what Mr. McNerney was just 
talking about.
    So, Dr. Frank, let me come back to you, I have a 2-year-old 
Toyota Camry hybrid that the sticker says gets 40 miles a 
gallon. It doesn't quite get that, but it is a lot better than 
a regular Camry gets.
    Mr. Frank. That's right.
    The Chairman. Thirteen or 14 gal better than a regular 
Camry, which is the most popular midsize vehicle in the United 
States, and has been for 7 or 8 years. And I am very happy with 
it.
    So what can you do for me, Dr. Frank, I have A123 that is 
up in my district; they do retrofits.
    Mr. Frank. Right.
    The Chairman. Talk to me a little bit about what is 
possible in this retrofit business area over the next 10 years 
and how it can become appealing to people to take a vehicle 
that gets 40 or 30, you know, and with some investment, get it 
up to 60, 70, 80 miles per gallon.
    What is the formula for making that work?
    Mr. Frank. There is a whole bunch of things that you 
brought up in that one question.
    The first thing is, going to the plug-in hybrid is really 
not about increasing fuel economy; it is about displacing oil. 
And because when you go to a plug-in hybrid, you are using 
electricity and not gasoline. So, yes, if you calculate in some 
funny way, you'll get better fuel economy.
    But I like to look at it--if you saw my chart on the 
board--as displacing oil on an annual basis. So I calculate 
that a plug-in hybrid with 50, 60 miles of all-electric range 
would displace 90 percent of the gasoline with electricity, and 
10 percent of the gasoline will be used on that particular car 
for the same driving.
    Now, would you say that is going from 20 miles per gallon 
to 200 miles per gallon? You could say it that way, but that is 
really not what is going on. What you are doing is, you are 
displacing energy from liquid fuel to electricity. And the most 
important thing about the electricity of course is, it is one-
eighth the cost.
    The Chairman. The only reason I use that term is that it 
makes it accessible to people, so when they invented the 
automobile, they called it a horseless carriage because that is 
all people knew. And then they called it horsepower, but it was 
to try to get people who were using one set of terms to get 
into the new technology.
    Mr. Frank. I understand.
    The Chairman. When we go to wireless phones, it has nothing 
to do with wires, but people are used to making phone calls on 
wires. But that is the only reason I am using that, the 
analysis that I am using.
    So is it something--well, take us out 10 years then, 
Doctor, and I would like each of your thinking--especially you, 
Ms. Zoi.
    We sell 15, 17 million vehicles in the United States every 
year.
    Mr. Frank. That's right.
    The Chairman. Let's go out 10 years. Let's keep the price 
of a gallon of gasoline at $4 a gallon, let's have this 
revolution coming in from Nissan--from, you know, the Chinese 
and others, and the innovation that is going to be spurred by 
us, having raised the fuel economy standards from 25 to 35 
miles per gallon.
    What does our fleet look like 10 years from now? I would 
like you, Dr. Frank and Ms. Zoi, to answer that question.
    Mr. Frank. Well, my feeling on this is, people are going to 
look at how much it costs them to go a mile, every mile. At the 
current time, cars cost 15 cents a mile roughly at $4 a gallon. 
And with electricity, using electricity from the grid, the 
current grid, it is about 22 cents a mile; and if you go to 
solar, it comes down even further.
    So that is, I think, ultimately what people are going to 
do. They are going to look at how much it costs them to go a 
given distance and do their job. And that difference between 2 
cents and--that is really the cost of living and lifestyle.
    The Chairman. So you think it is going to be dramatic in 10 
years?
    Mr. Frank. I think so. People are going to migrate towards 
something like the plug-in hybrid. The GM Volt is going to 
demonstrate that for us. So when people realize----
    The Chairman. Even there, General Motors is still fighting 
increases in the fuel economy, so even if it is the same--they 
are going to introduce the Volt in 2010, they are saying, but 
don't get too excited about what will be there by 2016. So 
don't try to increase from 31 miles per gallon, which----
    Mr. Frank. I have seen this happen at GM. You saw what 
happened to the electric car; are they really sincere about it?
    The Chairman. What do you think, Doctor?
    Mr. Frank. I think this time they are real, and the reason 
is, they look around the world, and they see a peak in the 
production of oil. And actually that is why it doesn't make 
sense to drill, because we can't drill our way out.
    The Chairman. Ms. Zoi.
    Ms. Zoi. I, too, think it will look dramatically different. 
The question of how different is a function of how much we 
enable it to happen quickly.
    One of my daydreams is to have an energy core that 
actually--I have been in the energy business for a long time--
that goes up and down the streets in neighborhoods and town 
centers, and finally does those energy efficiency retrofits 
that we have been talking about for a long time.
    And I know you have been talking about them. They are 
really simple things; it creates jobs. But it is stuff like 
insulation and thermostats and all that.
    But as we were talking on the break, we could also provide 
the infrastructure so that people could plug in their cars, 
their existing cars, and do retrofits if we wanted the plug-in 
hybrid thing to happen faster. So as we go street by street, we 
do the car infrastructure retrofit at the same time, so people 
can plug in.
    The Chairman. Were there any partnerships created during 
that break?
    Mr. Yurek. There were.
    The Chairman. Dr. Yurek.
    Mr. Yurek. If I could add a comment to your point in the 
last gentleman's question on these hybrid cars, you have to 
have the grid to support this. There is no wireless 
transmission of electricity, so you need the grid.
    And just one data point to consider, Con Ed, Consolidated 
Edison in New York City, concluded a couple of years ago that a 
5 percent penetration of plug-in hybrid vehicles in Manhattan 
would increase the rate of electricity demand by 50 percent--50 
percent--and they just don't have a grid to support that. That 
is what they concluded and stated publicly.
    The Chairman. Who concluded that?
    Mr. Yurek. Consolidated Edison.
    The Chairman. What about the argument they are plugging in 
on off-peak hours and you don't need a dramatic increase in the 
electrical generating capacity?
    Mr. Yurek. We have all been in New York City, and the 
lights stay on pretty much well into the night. It is during 
the day when the taxis running around they have to charge up 
periodically and delivery vehicles are coming in.
    So, yes, there will be a lot of off-peak charging by 
residential folks at your home and apartment, but there are a 
lot of other vehicles going around that need to charge up all 
the time.
    The 5 percent penetration gives a great increase----
    The Chairman. So you are not that optimistic.
    Mr. Yurek. I am optimistic in the following sense: We are 
working with Con Ed right now. They recognize it and are taking 
action. They want to create the ``Internet of power'' in 
Manhattan, and we are about to connect the first two 
substations in Manhattan to start that process.
    All those things have to happen for the vision of 10 years 
from now to come to completion.
    The Chairman. I will let you have the final word, Dr. 
Frank.
    Mr. Frank. That is the intelligent grid that we are 
referring to. I calculated with an intelligent grid, we don't 
have to increase the power at all.
    As a matter of fact, PNNL, the National Lab of--Pacific 
Northwest Lab, they calculate that. Actually, the current grid 
has enough energy to support 80 percent of the cars in this 
country today. So there is not a problem.
    The Chairman. Maybe we can get them to come in and work on 
New York City.
    Mr. Frank. Well, maybe. But the key is, with an intelligent 
grid, we have to have a smart plug. That plug doesn't take 
energy out. Batteries are one of those things that doesn't have 
to be charged all the time. You plug it in. That doesn't mean 
energy has to flow, it only has to flow at the right time; that 
is what intelligent grid is all about.
    The Chairman. Thank you. The gentlelady from South Dakota.
    Ms. Herseth Sandlin. Well, I just have a couple of quick 
follow-up questions.
    But I do think it is interesting, Mr. Chairman, given this 
panel, if we've identified an area of disagreement, I think we 
just maybe found it. And to get at the heart of some of these 
questions, we need to agree on a basic set of facts. So I think 
it is something that we should continue to work on to see just 
what the grid, the existing grid, can take on, and what types 
of investments for other transmission that we had pursued in 
other lines of questioning earlier, whether there are more 
populated parts of the country like New York City or some of 
what we hope to achieve in less-populated parts of the country 
like South Dakota.
    Ms. Zoi, your testimony mentions advances in thermal 
storage technologies. Have we seen similar advancements in wind 
energy storage capacity? And should Congress be doing more 
there to support research and development of renewable energy 
storage systems, because that has always been the knock on 
wind, it is intermittent.
    I met with some folks, and they think the technology could 
be there if they had resources to really advance the research 
for storage of wind energy.
    Could you comment?
    Ms. Zoi. No. I think you are right. I think that across the 
board what we want to do with the intermittent style of 
renewable solar and wind is to make sure that the investments, 
that the research and storage technologies continue; and a 
signal from Congress and help from Washington would certainly 
be good.
    The technologies that solar thermal are using are not 
rocket science technologies. Molten salt has been around for a 
long time, flywheels have been around for a long time; it just 
costs more money, but they are not breakthrough things.
    I presume that wind--my colleagues here might be able to 
better comment on this, wind can similarly do those things, but 
that can get even better, just as the photovoltaic cells 
themselves have continued to improve with more deployment 
across Germany, et cetera, the storage technologies need do the 
same.
    Ms. Herseth Sandlin. Dr. Yurek, your testimony also 
described your work with superconductor technology to double 
the output of wind turbines. Could existing wind turbines be 
retrofitted with this if your plan sort of goes forward?
    Mr. Yurek. I don't think that would be a particularly 
effective way to go. There are some instances where that might 
be possible, but there would be very specific generators that 
you would have to go back and retrofit.
    So I wouldn't hold that out as a terrific way to go.
    Ms. Herseth Sandlin. Okay.
    My last follow up, Mr. Lockard, you had talked about 
certain States and efforts of certain States to bring wind 
component manufacturing and test facilities to their States. 
And you describe incentives that are being provided at the 
State and local levels for training grants and building buy-
downs.
    What are some of those key incentives that local and State 
governments have offered?
    Mr. Lockard. The State of Iowa has been very progressive in 
terms of training grants, building buy-down programs to offset 
the cost of a new building. Building large blades, for example, 
requires big buildings; oftentimes a building is not available 
somewhere already. The States of Texas, Massachusetts have both 
put significant money forth to develop blade test facilities 
that they hope will be expanded to further R&D for offshore, 
further manufacturing capabilities, as well as the chairman 
understands. So there are pretty significant dollars available.
    On the R&D side, we would like to see more cost sharing, 
win-win-win programs, with industry, State and Federal dollars 
stretching the Federal dollars further, and that way doing some 
more of the higher-risk, higher-return R&D to drive down costs 
and do some of the things that have been described here.
    Those monies are available.
    Ms. Herseth Sandlin. Thank you.
    Thank you.
    The Chairman. It is a rare moment that a Congressperson 
yields back time. So I apologize to you.
    The gentleman from the State of Washington, Mr. Inslee.
    Mr. Inslee. Thank you. The more that I look at this, the 
more the grid becomes central to our ability to electrify the 
transportation system and really maximize our opportunities.
    When you look at metaphors on how to do this, you look at 
the Federal highway system. People suggested that--look what we 
did with the first Senator Gore on the Federal highway system; 
the Federal Government went out and built it, used tax revenues 
and just built it.
    I am not sure that is the right model for this, either a 
high DC or just an improvement over an AC system. I would like 
your thoughts on really how to finance that and who should do 
it.
    Now, I have introduced a bill that basically we call the 
``rural energy superhighway system'' that would basically 
spread the cost, create a line's charge and spread the cost, at 
least regionally, for those who are going to build a system to 
get out to a renewable field--wind or solar or geothermal or 
whatever they are going to use. So it would create, through a 
line charge system that the entity that built that line would 
essentially be able to benefit from.
    Is that adequate? And if that is not adequate, should the 
Federal Government really assume responsibility for building a 
DC backbone? Is that really the only entity available to do 
this? What is the best mechanism moving forward?
    I will start with Mr. Lockard maybe, if I can.
    Mr. Lockard. Yeah, I think others may comment a little 
better than I about the DC-AC issue, but the 20 percent wind 
work that has been done recently identified transmission 
infrastructure that does need to be built by someone somehow, 
but also real constraints from a planning standpoint and just 
control areas.
    I think it was mentioned earlier by one of our colleagues 
about just who has control over how wind gets generated and 
then distributed through multiple regions from windy regions to 
load centers. It is not just building the infrastructure, but 
also control area optimization.
    The 20 percent report showed that 300,000 megawatts can be 
built. Transmission is one of the biggest constraints, 
something like $60 billion; estimates may be more like $80,000.
    The Chairman. Three hundred thousand megawatts of wind.
    Mr. Lockard. Of wind by 2030.
    That transmission is going to be probably the single 
biggest constraint, there are other issues to getting there, 
but getting the wind to where load centers are effectively, it 
needs to be done. I am not sure that the Federal role needs to 
be pay for all of that.
    It seems to be that there is definitely planning and 
logistics in dealing with--the way those decisions are 
controlled today is a place to start. Storage could help 
augment and probably reduce some of the cost of that system as 
well.
    Mr. Inslee. Dr. Yurek.
    Mr. Yurek. We have an alternating current, an AC grid, for 
short. You can't legislate the physics of the grid, so the 
reason the FERC, Federal Energy Regulatory Commission, does not 
allow someone to just come in and plop a new AC transmission 
cable or overhead lines anywhere is because it would disturb 
the grid for large regions around it.
    You can do that with DC. You can plug a direct current 
cable in there and it won't disturb power flows over long 
distances. To put an add in here, I guess with superconductors 
cables, even with AC, you can allow that to happen; you can put 
it in.
    So your thought, I think, is in the right direction to 
allow somebody to charge for the use of that line and make 
money on it; therefore, they would make the capital 
investments. But you can't do it with conventional technology; 
once again, you will have to go to advanced technologies, or 
you will be forced to go to a DC, backbone as you say, which is 
still a good idea, anyway. But for local or rural, you probably 
are not going to be allowed.
    Mr. Inslee. When I said rural, that was as much marketing 
as anything else. I don't mean for rural usages that is where 
it would be located.
    So let me ask you, Dr. Yurek, do we need a DC backbone in 
the United States? Is that investment justified, and if so, who 
will provide the capital?
    Mr. Yurek. Well, I think ultimately if we are going to get 
to 300 gigawatts of wind-generated electricity in 2030, which 
seems quite feasible, it is possible you are going to have to 
have that backbone to support it. So you are going have to have 
these parallel paths of putting in new sources of zero-emission 
electricity generation along the backbone.
    So South Dakota is not next door to, let's say, Chicago or 
New York City for sure. So you are going to have to have a 
backbone to support the long distance transmission of power.
    Mr. Inslee. And what is the best funding mechanism? Is it a 
Federal Government? Is it a coalition of utilities? Is it 
private enterprise supported by loan guarantees? Is it just 
private enterprise? What is the best mechanism to accomplish 
this?
    Mr. Yurek. I think if there were some support loan 
guarantees and so forth for private enterprise--you think of 
this as putting the first bridge across the Hudson River; it 
was a toll bridge and let a lot of traffic to occur, west to 
east, and reverse. But it was private financing for that. We 
ought to give that a shot, I would say.
    But if that is not going to work for some reason, if we 
can't handle the regulation around the grid in a proper way, I 
think the interstate highway approach is probably the way to 
go.
    Ms. Zoi. Just to add something, I think speed is important. 
So--and I recall, unfortunately, in California last year there 
was a terrible road problem where a bridge or an overpass on 
one of interstates in the East Bay fell down. They had to fix 
it really fast.
    So the governor of California created a contract, bid out 
the job to a bunch of infrastructure civil engineering 
companies; and the terms of the contract were, every day that 
you finish sooner, you get more money. And the project was 
anticipated with--the government department had said, this will 
take 12 months to fix this road. And they got the job done in 
like 3 months because they had a financial reason to do it 
fast.
    So that was the innovation of private enterprise, but the 
bill was paid by the government.
    So I think it is so important that we get this DC backbone. 
And I think it is such a big enabler of T. Boone Pickens 
projects, and all the projects in the Southwest and so many 
projects around the country, that it might be worth it for the 
government to bankroll it, because it is not that much money to 
get going.
    Mr. Inslee. Thank you.
    Dr. Frank, may want to add something.
    Mr. Frank. Yeah, I have heard storage, storage, storage 
three or four times. The plug-in hybrid is the storage 
mechanism. We don't need additional storage. One of the things 
about wind, without storage 20 percent is maximum. If you had 
storage you had plug-in hybrids in society where you could take 
energy into and out of the car, you can go to 100 percent wind.
    Mr. Inslee. Dr. Frank, I got to drive one of your geniuses, 
a Toyota Remix yesterday. It worked like a charm. So thank you 
for your genius.
    The Chairman. I worked my way through college driving an 
ice cream truck. So I had to plug it into the side of the house 
every night, and would jump out, it took 5 seconds, plug it in. 
And in the morning rather than having to go some other place, 
you know, my ice cream it was already inside of my truck and 
ready to go and ready for sale. So the only thing is my father 
didn't get to park in the driveway, which was an issue. But my 
mother was on my side on that. There will be a lot of issues 
within families as to who gets to pull into the yard and plug 
in. We will figure that out when we hit critical mass in plug-
in vehicles.
    The gentleman from Missouri, Mr. Cleaver, is recognized 
once again.
    Mr. Cleaver. Actually Mr. Inslee pretty much dealt with 
what I wanted to ask you. T. Boone Pickens of course said it 
would cost $2- to $300 million of private investment of his own 
money to begin his wind farm. And I agree I think Ms. Zoi said 
this, any money we spend is good money as far as I am 
concerned. You can imagine--well, maybe you can--we don't have 
to imagine. We know that trying to get such an appropriation if 
the government is expected to be involved there it is going to 
be Herculean. We are still dealing with people who deny global 
warming. I mean in Congress.
    So is this something that the private sector can do without 
much participation from the Federal Government?
    Ms. Zoi. They can do it if the rules create a reason for 
them to do it. The capital is available. If you all say that a 
utility is not able to operate unless they access a DC line, 
you will have to create some policy settings that mean that the 
private sector can come in. But the engineers are sitting there 
waiting, they are ready to roll, they are ready to dig and run 
the wires. But unless you guys create a policy framework to do 
this, it may happen organically, but it may take a long time, 
longer than we have.
    Mr. Cleaver. Policy may be more important right now than--
--
    Ms. Zoi. Than money.
    Mr. Patrinos. I also would like to add in the case of 
biofuels, in order to level the playing field we need to do 
away with subsidies and tariffs that distort the marketplace. 
There are plenty of opportunities to produce biofuels that are 
competitive if we level the playing field.
    Mr. Cleaver. Anyone else?
    Thank you, Mr. Chairman.
    The Chairman. The gentleman's time has expired. The Chair 
recognizes the gentleman from California, Mr. McNerney.
    Mr. McNerney. Mr. Patrinos, I see biofuels as a terrific 
opportunity for my particular district, which is Central 
Valley, east of the San Francisco Bay Area. There is a 
deepwater port there, there are agricultural assets.
    One of the questions I have is how much raw biological 
material is there available in the country that we could use to 
make biofuels? I mean how many barrels equivalent of oil could 
we produce a year without impacting our food supply, just 
considering the growth potential, the green potential? How much 
can we plant, how much can we water? The realistic amount of 
oil equivalent that can be produced using bio feedstocks.
    Mr. Patrinos. So there have been several studies that have 
been conducted to get as good an evaluation of the available 
biomass, and the Department of Energy and the Department of 
Agriculture joined forces 3 years ago and produced a so-called 
billion ton study, and concluded that there were at least a 
billion tons per year of biomass that could be devoted to 
biofuels. And if all of that was converted into biofuels we 
could certainly replace more than 20 percent of the gasoline 
consumption in this country.
    There have been other studies that question the level and 
whether it is a billion or whether it is 800 million. I think 
there is an adequate amount to make a significant dent in 
gasoline consumption.
    Moreover, as I presented in my testimony, we are very 
optimistic, certainly in the company that I represent, that 
ultimately we can use carbon dioxide, which is what we are 
talking about burying in the subsurface, in the underground. We 
can use that as the feedstock and in many ways replace fossil 
fuels and convert fossil fuels into renewable fuels, because 
you could burn coal and the CO<INF>2</INF> that is produced, 
rather than releasing it to the atmosphere or burying it 
underground, you can then convert it back into another fuel, 
whether it is methane or potentially other ones.
    Mr. McNerney. So you have a pathway in mind to do that?
    Mr. Patrinos. We have several pathways in mind and we are 
working very aggressively because clearly if this is successful 
and we are optimistic that it will be, it will be the real game 
changer.
    Mr. McNerney. So you are talking about genetically 
modifying existing materials, existing----
    Mr. Patrinos. We are already, the community is using 
genetically modified organisms for conversion, Du Pont--to 
produce propane----
    Mr. McNerney. So from where we are today there is a 
significant amount of biological engineering that needs to be 
done to get to where you are talking about?
    Mr. Patrinos. We are optimistic that we will demonstrate 
this technology within 2 years and put it into large scale 
production within 5. So there are still some hurdles we have to 
jump, but they are within the range of our guns.
    The Chairman. Would the gentleman yield briefly?
    Mr. McNerney. Sure.
    The Chairman. So when we all kind of incant carbon capture 
and sequestration as the potential answer, you are saying that 
that might not be the answer, that there may be other pathways 
and you might be within 2 years of demonstrating a pathway.
    Mr. Patrinos. Indeed.
    The Chairman. Convert the carbon into something more useful 
and doesn't require any sequestration at all?
    Mr. Patrinos. Absolutely.
    Mr. McNerney. I don't know how to put this in a politically 
correct way. Is there going to be an outcry from people who are 
concerned about the genetic modifications?
    Mr. Patrinos. It is a reasonable question and we have dealt 
with this from the very beginning whenever we started 
developing this technology many years ago when the Human Genome 
Project essentially converted biology. So we have had scholars 
and community leaders and the public. And the public is very 
involved in the deliberations in order to make sure we put in 
place the safeguards that will render this technology safe.
    Mr. McNerney. I have used all of my time on just one 
question, Mr. Chairman. So I will yield back and maybe I will 
get another chance.
    The Chairman. I am afraid this is it, but you do have 32 
seconds left.
    Mr. McNerney. I was going to talk a little bit about carbon 
fibers and wind turbines, but you have sort of gone off, Mr. 
Lockard, in talking about buildings, making more buildings 
efficient, which is a huge sink of energy and a huge source of 
carbon dioxide. I don't hear too much discussion in that. Is 
that an area that your company has a hold on or is there any 
technology out there that we can say here is a great path 
forward for people to rehabilitate their buildings, make them 
efficient, help reduce this enormous drain of resource into 
heating and cooling buildings?
    Mr. Lockard. Yeah, I think my comment on the building 
related to State incentives that have been made available to us 
to help create jobs, that was a comment a little bit ago at any 
rate. The new buildings that we are building, we are working on 
trying to be conscious in that way. I am not sure there was any 
specific breakthrough there that I was trying to comment on.
    The Chairman. The gentleman's time has expired. I apologize 
to him.
    Mr. McNerney. I yield back.
    The Chairman. We are going to wrap up the hearing right now 
and we are going to ask each of you to give us your one-minute 
summation of what you want us to remember about the capacity 
here for technology to solve this problem, to give us a pathway 
to energy independence and a solution to global warming.
    We will begin with you, Mr. Lockard.
    Mr. Lockard. Yes, thanks again for the time and 
availability today.
    I think from a wind energy perspective, 20 percent wind is 
a feasible goal, perhaps more with good cost effective storage. 
Big constraints are transmission related and Federal policy 
boiling it down. We have a unique opportunity in wind to create 
U.S. manufacturing jobs, unique in part because the size of the 
components we build are physically very large, transportation 
is therefore expensive from places like China and Mexico. We 
have a unique opportunity with 20 percent to create 500,000 
U.S. manufacturing jobs in this time frame. Federal support is 
critically important to make the pie big, make the volume high, 
make the volume stable. So stability of policy and of course 
again just urgent requests really related to the current PTC. 
It is an issue today before recess, after recess, it is an 
issue today, a pretty pressing issue. Jobs will be lost in 2009 
already. So just ask for urgent action on that.
    The Chairman. Just a quick yes or no on this. Do the 
witnesses support or oppose the renewal of the production tax 
credit for renewables?
    Mr. Patrinos. We certainly support it.
    Mr. Frank. Support it.
    Mr. Yurek. Yes.
    Ms. Zoi. Support.
    The Chairman. Dr. Patrinos, your conclusion.
    Mr. Patrinos. Thank you for this opportunity. The 
revolution of genomics led by scientists like my colleague 
Craig Venter have transferred biology to the game changer for 
the challenges we face dealing with the energy crisis and the 
climate crisis. These new tools, the scientific tools that have 
been enabled through the genomics revolution will give us the 
opportunity to produce the right and the copious amounts of 
bioenergy and especially biofuels to convert much of our 
transportation and energy system in a renewable way. Especially 
the revolution of using carbon dioxide as a feedstock for 
bioenergy would be a great part of the game changing element.
    What we do need, as I mentioned earlier, is leveling the 
playing field for alternative fields as well as promoting 
sensible regulations with respect to the synthetic genomics 
technology that we have developed.
    The Chairman. Thank you, Dr. Patrinos.
    Dr. Frank.
    Mr. Frank. Thanks again for inviting me, I am delighted to 
be here to contribute.
    The most important thing I think to realize about the plug-
in hybrid is we are talking about a plug-in hybrid. Once we get 
to about 50 percent penetration into the vehicle market of 
reducing our oil consumption substantially and as a matter of 
fact----
    The Chairman. Substantially is what, doctor?
    Mr. Frank. Substantially meaning 80 to 90 percent of oil.
    The Chairman. Ah-hah.
    Mr. Frank. So once you get to that stage, biofuels become 
practical. The 20-percent that was stated earlier, we don't 
have to go any further. We don't even have to have more. So the 
point is to get there we are going to have to do more R&D. And 
the Federal Government--by the way I have developed these plug-
in hybrids over the last 25, 30 years with no funding from the 
Federal Government at all. But we are going to have to step 
that up, because now the key is to get these cars into the 
hands of the public. That means development and deployment. We 
have to do that through government help. It is not going to 
happen by itself.
    The Chairman. Thank you, Dr. Frank.
    Dr. Yurek.
    Mr. Yurek. Thanks for having me here today, thanks for the 
committee being formed. I think you are doing just the right 
things.
    I think we have the genius, I think we have the 
inspiration, and the drive in the country to solve the problems 
we face. I think we can be energy independent. We need new 
sources of generation, whether it is solar, thermal or wind, 
you name it. There is more technology that has to be developed 
and can be developed in this country. You need energy storage 
devices. Whether it is flow batteries or flywheels or what have 
you, the technology is there. It is ready to be developed and 
brought to the fore. You are going to need a grid to support it 
all, to get it to the customers in a timely way with high 
efficiency.
    I think everybody is agreeing, what I have heard today, 
about increasing the efficiency of operation of our industrial 
systems as well as our residential and commercial buildings. 
Motors use up to two-thirds of all the electricity in this 
country, use is up, burn it up. We can make those much more 
efficient and have big savings. A lot we can do, this committee 
is on the right pathway, keep it up.
    The Chairman. Thank you, Dr. Yurek. And Ms. Zoi.
    Ms. Zoi. I would close and talk a little bit about the 
politics. When Al Gore issued his challenge 2 weeks ago there 
was some nervousness in the intellectuals about how ambitious 
it was. The response from across America from editorial boards 
and citizens has been that it is very, very enthusiastic. So I 
guess what I would like to leave you with is go bold, be bold. 
We have the technology capability, we have the know-how, we 
have the wherewithal. And the American people, I don't know 
about inside of Washington, but the American people are rising 
to that challenge and have an appetite for something big to 
demonstrate our can do spirit again.
    The Chairman. Thank you very much. And thank you all for 
being here. You know, I realize that people want big. People 
want game changers. Back about 3 years ago at Boston University 
they gave me an honorary degree on the same day they gave one 
to Saul Bellow and Craig Venter. I was the lowest card in that 
realm, but then they saved their cheers for the final honorary 
degree recipient, which was Bill Belichick, who had just won 
three Super Bowls in a row, which seemed to be impossible in 
Boston until his arrival and he was being rewarded with this 
enthusiastic response.
    Now what Craig Venter had done was of course completely 
change the way we view medicine. In 1900 the average age of 
death was 48, this year it is 79. We know with all these 
breakthroughs one in three children born today will live to the 
age of 100. It has a lot to do with what Craig Venter has done 
and others in all these breakthrough areas, tremendous changes.
    When Al Gore was Vice President and I was the lead Democrat 
on the Telecommunication Subcommittee back in 1995 and 1996, 
when we were passing the Telecommunication Act we had analog 
all across America. No one had broadband in any home in the 
United States, but our goal was to move from narrow band to 
broadband, from analog to digital. That was the goal.
    Well, 1997, people started getting broadband. Did we know 
the names of the companies? Of course we didn't. We didn't know 
the names were going to be Google and e-Bay and YouTube. Who 
knew what the names were going to be? All we knew is we were 
empowering technologists to go out there and do it. Ten years 
later the world is un-recognizable. No one even remembers 
before broadband. It just seems like ancient history and it is 
only 10 years, which is why the Vice President's goal of 10 
years is realistic. As long as we get the policies right, as 
long as we set it up so that we are empowering the same kinds 
of people that we empowered in the Telecommunications Act, the 
same kind of game changing, technology innovating, companies 
and individuals that we did in telecom.
    And I don't think it is a coincidence, the two wires going 
down the street for 100 years were the telephone wire and the 
electric wire. And a lot of people called this stuff low 
hanging fruit, but it is heavily guarded low hanging fruit. 
These utilities shoot with real bullets when they are fighting 
against innovation. And so if we want to change the paradigm it 
is going to be a tough battle, they are powerful and 
entrenched, but the tides of history have turned against them.
    And so now hopefully next year we will put on the books a 
mandatory cap and trade system. We will be at Copenhagen as the 
world's leader, not laggard. We will have a position of moral 
and political integrity from which we can finally be speaking 
and we will be empowering the great innovators who are here at 
the table here today. Each of you in your own way is pushing 
the edge of the envelope. You are trying to change the world 
through your technologies and through your political activism. 
From most of what I have heard this morning, we don't have to 
wait for the breakthroughs, you have already made them. We are 
not waiting for a new invention, you have already made them. As 
soon as we get them into the marketplace, the quicker they will 
be improved, the quicker that they will be modified, and the 
quicker we will get the solution that the planet needs.
    I am very confident that 2050 will be a year in which we 
all look back and wonder what the big debate was all about back 
in 2008 about the price that the economy was going to have to 
pay, because the world will have been so transformed. And the 
people sitting at this table will have played a big role in it, 
and we thank you for it. And we thank you for being here all 
afternoon.
    With that, this hearing is adjourned.
    [Whereupon, at 5:15 p.m., the select committee was 
adjourned.]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre></body></html>
